Audit Report




OIG-14-010
Audit of the Department of the Treasury Forfeiture Fund’s
Fiscal Years 2013 and 2012 Financial Statements


December 16, 2013




Office of
Inspector General
Department of the Treasury
                                        DEPARTMENT OF THE TREASURY
                                              W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL




                                               December 16, 2013


            MEMORANDUM FOR ERIC HAMPL, DIRECTOR
                           TREASURY FORFEITURE FUND

            FROM:                    Michael Fitzgerald
                                     Director, Financial Audit

            SUBJECT:                 Audit of the Department of the Treasury Forfeiture Fund’s
                                     Fiscal Years 2013 and 2012 Financial Statements

            I am pleased to transmit the attached audited Department of the Treasury
            Forfeiture Fund (TFF) financial statements for Fiscal Years 2013 and 2012. Under
            a contract monitored by the Office of Inspector General, GKA, P.C. (GKA), an
            independent certified public accounting firm, performed an audit of the financial
            statements of the TFF as of September 30, 2013 and 2012 and for the years then
            ended. The contract required that the audit be performed in accordance with
            generally accepted government auditing standards and applicable provisions of
            Office of Management and Budget Bulletin No. 14-02, Audit Requirements for
            Federal Financial Statements.

            The following reports, prepared by GKA, are incorporated in the attachment:

                    •   Independent Auditor’s Report on Financial Statements;
                    •   Independent Auditor’s Report on Internal Control over Financial Reporting;
                        and
                    •   Independent Auditor’s Report on Compliance and Other Matters.

            In its audit, GKA found:

                    •   the financial statements were fairly presented, in all material respects, in
                        accordance with accounting principles generally accepted in the United
                        States of America;
                    •   no deficiencies in internal control over financial reporting that are
                        considered material weaknesses; and
                    •   no instances of reportable noncompliance with laws and regulations
                        tested.
Page 2


In connection with the contract, we reviewed GKA’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit performed in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express, an opinion on the financial statements or conclusions about the
effectiveness of internal control or compliance with laws and regulations. GKA is
responsible for the attached auditor’s reports dated November 13, 2013 and the
conclusions expressed in the reports. However, our review disclosed no instances
where GKA did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Catherine Yi, Manager, Financial Audit at
(202) 927-5591.

Attachment
                                                                    1015 18th Street, NW
Certified Public Accountants                                            Suite 200
& Consultants                                                     Washington, DC 20036
                                                                    Tel: 202-857-1777
                                                                    Fax: 202-857-1778
                                                                    www.gkacpa.com




      Treasury Forfeiture Fund
        ACCOUNTABILITY REPORT
            Fiscal Year 2013
            DEPARTMENT OF THE TREASURY
                 WASHINGTON, D.C.




                               Member of the American Institute of Certified Public Accountants
THIS PAGE INTENTIONALLY LEFT BLANK
                                       Message from the Director

I am pleased to present the fiscal year (FY) 2013 Accountability Report for the Treasury Forfeiture Fund (the
Fund). While highlighting the Fund’s financial and operational performance over the past year, this report also
focuses on some of the significant investigative achievements of our participating law enforcement agencies
this year. FY 2013 was the highest revenue year since the inception of the Fund with income of over $1.7
billion from forfeitures and recoveries, as compared to $516.6 in million received in FY 2012. Among these
forfeitures, a total of nine major cases accounted for more than $1.3 billion in gross revenues, with the
remaining $400 million coming from direct forfeitures, recoveries, interest, and equitable sharing received
from the Department of Justice.

The continued high-impact performance of the Fund reflects the ongoing hard work of our law enforcement
bureaus as well as Fund management’s emphasis on major case initiatives, asset forfeiture program training
and a focused approach regarding our performance measure which gauges revenue from high-impact cases.
The mission of the Fund is to affirmatively influence the consistent and strategic use of asset forfeiture by our
law enforcement bureaus to disrupt and dismantle criminal enterprises. It is our view that the greatest damage
to criminal enterprises can be achieved through large forfeitures; hence we have set a target level of 80 percent
of our forfeitures to be high-impact, i.e., cash forfeitures equal to or greater than $100,000. This target level is
up from 75 percent set for FY 2010 and prior years. For FY 2013, our member bureaus exceeded the target
with a performance level of 95 percent as compared to 76.4 percent in FY 2012. If we exclude a single
forfeiture totaling $881 million, our performance measure for FY 2013 would be 88 percent.

In FY 2013, the Fund prioritized the support of law enforcement efforts targeting Third Party Money
Laundering Networks (3PML). This is a critically important investigative area aimed at dismantling the
financial infrastructure of Transnational Criminal Organizations. After reviewing existing 3PML cases being
investigated by the Fund’s Treasury and Homeland Security member law enforcement agencies, the Fund
provided funding resources to enhance their analytical and operational needs. In union with this initiative, the
Fund conducted two seminars in San Antonio and Fort Lauderdale, which focused on 3PML issues specific to
those locations. The curriculum also included money laundering typologies, such as bank capture, trade-based
money laundering, black market peso exchange, and the use of money service businesses.

Contributing to this year’s record revenue levels was the highest single forfeiture in the Fund’s history. Hong
Kong Shanghai Banking Corporation (HSBC), one of the world’s largest financial institutions, agreed to
forfeit $881 million as a result of a Deferred Prosecution Agreement for allowing over $200 trillion in wire
transfers from medium risk countries to pass through its branches around the world. HSBC was willfully blind
in administering its anti-money laundering program, and ultimately admitted to knowingly aiding financial
institutions in sanctioned countries by disguising wire transfers to avoid detection by U.S. authorities.

During FY 2013, Ernst & Young, one of the ‘Big Four’ accounting firms, agreed to forfeit $123 million as part
of a Non Prosecution Agreement for its role in promoting tax shelters to high end clients in an effort to reduce
or eliminate approximately $2 billion in aggregate tax liabilities. Ernst & Young also agreed to certain
restrictions on its tax practices, including a prohibition on promoting illegal tax shelters.

The Treasury Forfeiture Fund continues in its capacity as a successful multi-Departmental Fund representing
the interests of law enforcement components of the Departments of Treasury and Homeland Security.
Member bureaus include the Internal Revenue Service’s Criminal Investigation (IRS-CI), the U.S. Secret
Service (USSS), Immigration and Customs Enforcement (ICE), and Customs and Border Protection (CBP).
The U.S. Coast Guard (USCG) continues its close working relationship with the legacy Customs bureaus. We
look forward to another successful year in FY 2014.

                                                           Eric E. Hampl, Director
                                                           Executive Office for Asset Forfeiture
                                                           U.S. Department of the Treasury
THIS PAGE INTENTIONALLY LEFT BLANK
                                                           Table of Contents


Section I: Overview

    Profile of the Treasury Forfeiture Fund ...............................................................................1
    Strategic Mission and Vision ...............................................................................................1
    Case Highlights ....................................................................................................................2
    Program and Fund Highlights ............................................................................................11
    Program Performance ........................................................................................................12
    Financial Statement Highlights ..........................................................................................14

Section II: Independent Auditor’s Reports

    Independent Auditor’s Report on Financial Statements ....................................................18
    Independent Auditor’s Report on Internal Control over Financial Reporting ...................21
    Independent Auditor’s Report on Compliance and Other Matters ....................................23

Section III: Financial Statements and Notes

    Financial Statements:
       Balance Sheets .............................................................................................................25
       Statements of Net Cost.................................................................................................26
       Statements of Changes in Net Position ........................................................................27
       Statements of Budgetary Resources.............................................................................28
       Notes to Financial Statements ......................................................................................29

Section IV:

Required Supplemental Information ........................................................................................48

Section V:

Other Accompanying Information ...........................................................................................50
THIS PAGE INTENTIONALLY LEFT BLANK
                                  Treasury Forfeiture Fund
                                FY 2013 Management Overview


Profile of the Treasury Forfeiture Fund

The Treasury Forfeiture Fund (the Fund) is the receipt account for the deposit of non-tax forfeitures made
pursuant to laws enforced or administered by law enforcement bureaus that participate in the Treasury
Forfeiture Fund. The Fund was established in October of 1992 as the successor to the Forfeiture Fund of
the United States Customs Service. The Fund is a “special receipt account.” This means the Fund can
provide money to other federal entities toward the accomplishment of a specific objective for which the
recipient bureaus are authorized to spend money and toward other authorized expenses. The use of Fund
resources is governed by law, policy and precedent as interpreted and implemented by the Department of
the Treasury which manages the Fund. A key objective for management is the long-term viability of the
Fund to ensure that there are ongoing resources to support member-bureau seizure and forfeiture activities
well into the future. The emphasis of Fund management is on high impact cases that can do the most
damage to criminal infrastructure.

The Treasury Forfeiture Fund continues in its capacity as a multi-Departmental Fund, representing the
interests of law enforcement components of the Departments of Treasury and Homeland Security. Our
member bureaus include the Internal Revenue Service’s Criminal Investigation (IRS- CI), the U.S. Secret
Service, Immigration and Customs Enforcement (ICE), and Customs and Border Protection (CBP). The
U.S. Coast Guard continues its close working relationship with the legacy Customs bureaus and
functions in a member-bureau capacity.

The Executive Office for Asset Forfeiture (EOAF), which provides management oversight of the Fund,
falls under the auspices of the Under Secretary for Terrorism and Financial Intelligence. EOAF’s
organizational structure includes the Fund Director, Legal Counsel, Assistant Director for Financial
Management and Assistant Director for Policy. Functional responsibilities are delegated to various team
leaders. EOAF is located in Washington, D.C., and currently has 25 authorized full time equivalent
positions.

Strategic Mission

The mission of the Treasury Forfeiture Fund is to affirmatively influence the consistent and strategic use
of asset forfeiture by law enforcement bureaus that participate in the Treasury Forfeiture Fund to disrupt
and dismantle criminal enterprises.

Strategic Vision

Fund management works to focus the asset forfeiture program on strategic cases and investigations that
result in high-impact forfeitures. Management believes this approach incurs the greatest damage to
criminal organizations while accomplishing the ultimate objective – to disrupt and dismantle criminal
enterprises.



                                         SECTION I - OVERVIEW                                           1
Case Highlights

The following case highlights are intended to give the reader an idea of the types of investigative cases
worked by the Fund’s law enforcement bureaus during FY 2013 that resulted in the seizure and forfeiture
of assets. Such cases as those profiled below are consistent with the Strategic Mission and Vision of the
Treasury Forfeiture Program, which is to use high-impact asset forfeiture in investigative cases to disrupt
and dismantle criminal enterprises.


I m m igration and Custom s Enforcem ent (I CE)
Departm ent of Hom eland Security

HSBC Forfeits $1.256 Billion in Deferred Prosecution
Information included in the following forfeiture article is attributed to: United States District Court, Eastern District of New
York, Deferred Prosecution Agreement, as well as the Statement of Facts, Case No. 12-cr-00763-ILG, dated December 10,
2012; Article Samuel Rubenfeld, entitled: “The Rogues Gallery: A Sample of HSBC’s High-Risk Customers,” published in the
Wall Street Journal, on July 23, 2012.

In one of the most highly-publicized forfeitures of the last decade, HSBC forfeited $1.256 billion to the
U.S. Government as part of a December 10, 2012 Deferred Prosecution Agreement (DPA). The DPA
stipulated that $881 million of the forfeited amount was involved in transactions made in violation of 18
USC sections 1956 and 1957 (money laundering offenses). This $881 million was deposited in the
Treasury Forfeiture Fund. The remaining $375 million was stipulated as resolving various violations
under Title 50, Appendix, sections 3, 5, and 16 (which detail restrictions on trading with foreign
enemies). The $375 million was deposited in the Justice Forfeiture Fund.

HSBC failed to adequately monitor over $200 trillion in wire transfers from 2006 to 2009 in “standard” or
“medium” risk countries, including over $670 billion from HSBC Mexico. HSBC also failed to keep an
adequate “Know Your Customer” program in place, and did not have adequate staffing for its anti-money
laundering program. HSBC further allowed a large amount of money to enter the financial system
through its Mexican branches, ignoring the large amount of risk the transactions and customers posed. A
large amount of suspicious activity was a result of casa de cambios moving funds through HSBC that
should have raised red flags. At the height of this activity, one high-risk Mexican customer was moving
over $113 million through HSBC per month.

In addition to these offenses, HSBC also admitted to knowingly aiding financial institutions in sanctioned
countries, such as Iran and Cuba. HSBC employees disguised wire transfers to these countries so as to
avoid detection by the U.S. Government. As part of the deal, HSBC agreed to significantly strengthen its
anti-money laundering compliance program.

To date, the $881 million forfeiture is the largest ever received by the Treasury Forfeiture Fund.



Nevada ICE Agents Seize $1,089,300 at Airport from Romanian Organized Crime Courier
Information included in the following forfeiture article is attributed to: United States District Court, District of Nevada Final
Order of Forfeiture in case number 10-CR-00579-GMN-RJJ; Additional case information was provided from the ICE Liaison
to the Treasury Executive Office for Asset Forfeiture.



2             TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2013
In October 2009, ICE agents seized $1,089,300 in U.S. currency from an individual known to be
associated with a Romanian Organized Crime group. The target was attempting to board a flight with the
currency concealed in his carry-on luggage. The currency was seized for violations of bulk currency
smuggling and money laundering offenses.

The initial seizure led investigators to make several additional seizures, including $248,800 in a storage
locker controlled by the defendant. All of the seizures and property involved in the case were forfeited in
the same court order on December 21, 2012.



I nternal R evenue Service, Crim inal I nvestigation (I R S-CI )
Departm ent of the Treasury

Wegelin Agrees to Forfeit Additional $15.821 million in Conjunction with Guilty Plea
Information included in the following forfeiture article is attributed to: U.S. Department of Justice (DOJ) Press Release dated
January 3, 2013, entitled: “Swiss Bank Pleads Guilty in Manhattan Federal Court to Conspiracy to Evade Taxes.”

On January 3, 2013, Wegelin & Co. pled guilty to charges of conspiracy to evade taxes. As part of its
guilty plea, WEGELIN agreed to a civil forfeiture of $15.821 million. In addition, WEGELIN agreed to
pay approximately $20 million in restitution to the IRS and to pay a $22.05 million fine. In April 2012,
the U.S. Government forfeited over $16.2 million from WEGELIN’s correspondent bank account; this
amounts to a total recovery to the United States of approximately $74 million.

Founded in 1741, WEGELIN is Switzerland’s oldest bank. It provided private banking, asset
management, and other services to clients around the world, including U.S. taxpayers. WEGELIN had no
branches outside Switzerland, but it directly accessed the U.S. banking system through a correspondent
bank account that it held at UBS AG (“UBS”) in Stamford, Connecticut.

From 2002 through 2011, WEGELIN conspired with various U.S. taxpayers and others, to hide from the
IRS the existence of bank accounts held at WEGELIN, and the income generated in those secret accounts.
WEGELIN employees told various U.S. taxpayer-clients that their undeclared accounts would not be
disclosed to the United States authorities because the bank had a long tradition of secrecy. They also
persuaded U.S. taxpayer-clients to transfer assets from UBS to WEGELIN by emphasizing that, unlike
UBS, WEGELIN did not have offices outside of Switzerland and was therefore less vulnerable to United
States law enforcement pressure. Members of WEGELIN’s senior management approved efforts to
capture the clients who were leaving UBS and also participated in some meetings with U.S. taxpayer-
clients who were fleeing UBS.

To further the goals of the conspiracy from 2002 through 2011, WEGELIN took steps that included the
following:
    • Opening and servicing undeclared accounts for U.S. taxpayer-clients in the names of sham
       corporations and foundations formed under the laws of Liechtenstein, Panama, Hong Kong, and
       other jurisdictions for the purpose of concealing some clients’ identities from the IRS;
    • Accepting documents that falsely declared that the sham entities were the beneficiary owners of
       certain accounts, when in fact the accounts were controlled by U.S. taxpayers, and making them
       part of WEGELIN’s client files;
    • Permitting certain U.S. taxpayer-clients to open and maintain undeclared accounts at WEGELIN
       using code names and numbers to minimize references to the actual names of the U.S. taxpayers
       on Swiss bank documents;
                                                  SECTION I - OVERVIEW                                                            3
    •   Ensuring that account statements and other mail for U.S. taxpayer-clients were not mailed to them
        in the United States;
    •   Communicating with some U.S. taxpayer-clients using their personal email accounts to reduce the
        risk of detection by law enforcement; and
    •   Issuing checks drawn on, and executing wire transfers through, its U.S. correspondent bank
        account for the benefit of U.S. taxpayers with undeclared accounts at WEGELIN and at least two
        other Swiss banks. In so doing, WEGELIN sometimes separated the transactions into batches of
        checks or multiple wire transfers in amounts that were less than $10,000 to reduce the risk that the
        IRS would detect the undeclared accounts.



Ernst and Young Forfeits $123 Million as Part of Non-Prosecution Deal
Information included in the following forfeiture article is attributed to: DOJ Press Release No. 13-065, “Manhattan U.S.
Attorney Announces Agreement With Ernst & Young LLP To Pay $123 Million To Resolve Federal Tax Shelter Fraud
Investigation,” dated March 1, 2013; Article by Bob Van Voris, entitled: “Ernst & Young to Pay $123 Million to End Tax-
Fraud Probe,” published in Bloomberg BusinessWeek, March 2, 2013.


On February 26, 2013, Ernst and Young entered into a non-prosecution agreement (NPA) with the United
States, in which the company agreed to forfeit $123 million and acknowledged in a detailed Statement of
Facts that some employees intentionally promoted tax shelters and attempted to disguise this behavior as
legitimate investments.

According to the statement of facts, Ernst and Young worked in conjunction with various law firms,
banks, and investment advisers, to develop, market, and implement four tax shelter products. Ernst and
Young implemented these four tax shelter products for approximately 200 high net worth clients in an
effort to defer, reduce, or eliminate $2 billion in aggregate tax liabilities between 1999 and 2002. Ernst
and Young prepared tax returns reflecting tax losses claimed to have been derived from those tax shelter
products and subsequently defended certain of its clients in connection with audits of those transactions
by the IRS.

A small group within Ernst and Young known as the Strategic Individual Solutions Group (SISG) was
primarily responsible for supervising and coordinating the marketing, implementation and defense of
Ernst and Young’s tax shelter products. Certain SISG tax shelter products were designed to appear to the
IRS to be substantive investments that had favorable tax consequences when, in reality, the products were
actually designed and marketed to clients as a series of preplanned steps that would defer, reduce or
eliminate their tax liabilities.

In order to deceive the IRS as to the true nature of the tax strategies, and to bolster arguments that the
transactions had economic substance, some SISG personnel agreed upon and directed other Ernst and
Young employees to participate in a concerted effort not to create, disseminate, or publicize documents
reflecting the tax motivation behind the strategies, or the preplanned sequence of steps necessary to effect
the strategies. These SISG personnel thereby sought to prevent the IRS from detecting their clients’
purposes in employing these strategies.

In addition to the forfeiture, Ernst and Young also agreed to certain permanent restrictions and controls on
its tax practice, including a prohibition against planning, promoting or recommending any “listed
transaction.” In exchange, the United States agreed not to criminally prosecute Ernst and Young for its

4            TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2013
participation in the tax shelter scheme. In the event that the firm violates the NPA, the U.S. Attorney’s
Office may prosecute Ernst and Young.



Custom s and Border P rotection (CBP )
Departm ent of Hom eland Security
CBP had another productive year for seizures of cash and drugs at the border and border regions; the
 follow ing represents a sam ple of their law enforcem ent seizures that have been deposited into the
                                 Treasury Forfeiture Fund in FY 2013 1.


CBP Officers Seize 14,353 lbs of Marijuana at Laredo Port of Entry
Information included in the following forfeiture article is attributed to: CBP news Release dated October 15, 2012, entitled:
“Over $11M Worth of Marijuana Seized by Border Patrol Agents”; additional information was provided by the CBP Liaisons
to TEOAF.

On October 11, 2012, a Laredo South Border Patrol Station Watch Commander observed a 2006 Mack
truck pulling a 1984 trailer carrying a large steel container suddenly turn around on Highway 83 south of
the checkpoint. The watch commander executed a vehicle stop, requested back up, and approached the
driver and subsequently received consent to search the truck and trailer. A canine alerted to the container
on the trailer. Further investigation of the container led agents to trap doors, an overwhelming smell of
marijuana, and numerous cellophane wrapped bundles, weighing a total of 14,353.19 pounds. The
estimated street value of the drugs was $11,482,552.




                             Figure 1: Over 14,000 pounds of marijuana seized in Laredo, TX


1
     With regard to any undeclared currency seizures identified in the following investigative narratives, individuals are
permitted to carry any amount of currency or monetary instruments into or out of the United States. However, if the quantity is
$10,000 or more, they must formally report the currency to CBP. Failure to declare may result in seizure of the currency
and/or arrest. An individual may petition for the return of currency seized by CBP officers, but the petitioner must prove that
the source and intended use of the currency was legitimate.

                                                 SECTION I - OVERVIEW                                                           5
CBP Officers Seize $329,104 near San Clamente, CA
Information included in the following forfeiture was provided by the CBP Liaisons to TEOAF, and by court documents filed
in case number 3:12-CV-01606, Southern District of California.

On February 9, 2012, Border Patrol Agents from the San Diego Sector Smuggling Interdiction Group
(SIG) encountered a male subject erratically driving south on Interstate 5 near San Clemente, California.
The SIG agents began following the Chevrolet truck to further observe the suspect’s behavior, and
executed a vehicle stop. During the stop, a canine alerted to the presence of narcotics. A search of the
bed of the 1995 Chevrolet C2500 truck revealed a duffle bag concealed under a spare tire, a space heater
box, traffic cones and tools. Agents discovered a total of $329,144 in U.S. currency wrapped in bundles
inside of the heater box and duffle bag. SIG agents arrested the male driver who was a citizen of Mexico
in possession of a valid Border Crossing Card, seized the currency, and vehicle. During processing it was
discovered that the currency contained residue from cocaine, and that $40 was counterfeit. Of the
$329,104 U.S. currency seized, $2,900 was ordered to be refunded to the driver, and the remaining
$326,204 was judicially forfeited in May 2013.




                                              Figure 2: the duffle bag of cash




                                            Figure 3: the full currency seizure


CBP Officers Seize $270,780 From Attempted Smuggler
Information included in the following forfeiture is attributed to: Information provided by the CBP Liaisons to TEOAF;
Declarations of Administrative Forfeiture, dated 10/18/2012 and 12/17/2012; article by Edward Sifuentes published in U-T
San Diego titled: “Border Patrol agents seize $270,000 in cash, 22 pounds of meth” dated June 1, 2012.

On May 31, 2012, San Diego Border Patrol Agents arrested one male U.S. citizen and one female who
was a citizen of Mexico, for attempting to smuggle more than $200,000 in the quarter panels of a Honda

6            TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2013
Accord. Border Patrol Agents were on patrol when they observed the 2002 Honda traveling southbound
on Interstate 15 near Temecula, California, and the driver acting suspiciously. The agents performed a
vehicle stop and the driver of the Civic consented to a search of his vehicle. A Border Patrol canine
alerted to both of the rear quarter panels. Agents dismantled the panels and discovered a total of seven
duct taped bundles containing $270,780 in U.S. currency behind a plastic sheet. When counting the
money, agents also discovered 23 counterfeit $100 bills. Lab results indicated that the currency tested
positive for cocaine residue. The currency was forfeited in October 2012, and the vehicle was forfeited in
December 2012.




                                    Figure 4: Currency seized from attempted smuggler.




                                   Figure 5: Smuggler's vehicle with rear panel removed.



United States Secret Service (USSS)
Departm ent of Hom eland Security

E-Gold Forfeits $10.8M in Criminal Proceeds
Information included in the following forfeiture article is attributed to: The Baynet News Release, dated June 6, 2011, entitled:
“E-Gold Forfeiture Complaint Filed”; DOJ Press Release, dated April 27, 2007, entitled: “Digital Currency Business E-Gold
Indicted for Money Laundering and Illegal Money Transmitting.”

E-gold, a digital currency business engaged in the business of exchanging traditional forms of currency
for precious metals held in electronic form known as “e-metals” or “e-gold” was first indicted in 2007 on
charges of money laundering, conspiracy, and operating an unlicensed money transmitting business. In
the spring of 2010, the U.S. Secret Service was contacted by a law firm representing E-Gold to reach a
deal. An internal review of bank accounts owned by E-Gold identified numerous accounts containing
proceeds of criminal activities, including child pornography, credit card fraud, identity theft, investment
                                                  SECTION I - OVERVIEW                                                          7
fraud, and the sale of stolen or non-existent goods on the internet. The investigation revealed
approximately $90,000,000 that is subject to forfeiture in bank accounts owned by E-Gold. These funds
were voluntarily surrendered to the U.S. Secret Service and, per judicial order, will be forfeited in
multiple stages.

On December 14, 2012, the first final order of forfeiture for $10.8M was issued by U.S District Judge
Ellen Hounder, Federal Judicial District of Maryland, Northern Division, for the value of approximately
12,868 accounts held in the E-Gold Remission bank account. This forfeiture has been deposited in the
Treasury Forfeiture Fund.



U.S. Secret Service Seizes Over $2 Million Worth of Cash, Firearms and Precious Metals While
Shutting Down Large Scale Investment Scheme
Information included in the following forfeiture article is attributed to: Commodity Futures Trading Commission (CFTC)
Press Release, dated February 28, 2013, entitled: “CFTC Settles Charges against Ronnie Gene Wilson of South Carolina and
His Company, Atlantic Bullion and Coin, for Operating a Multi-Million Dollar Silver Bullion Ponzi Scheme”; Additional
information was provided by the USSS Liaison to TEOAF.

In February 2012, the South Carolina Attorney General’s Office contacted the Secret Service requesting
assistance regarding a multi-million dollar investment scheme. The investigation determined that Atlantic
Bullion & Coin Inc., a precious metals brokering house, operated a large-scale fraudulent investment
operation in which they solicited funds from clients for a non-existent silver venture opportunity. Agents
executed multiple search warrants and recovered several computers containing databases of clients and
their investments. Forensic analysis of the computers revealed that the owner stole over $95 million from
more than 1,000 victims.

On April 4, 2012, agents arrested the target for violations of 18 USC 1341 (mail fraud). Agents seized
cash, firearms, artwork and precious metals valued at $725,000.

On March 14, 2013, agents arrested two targets for violations of 18 USC 371 (conspiracy) and 18 USC
1343 (wire fraud). A federal search warrant was executed on their residence, located in Mesa, Arizona.
 Pursuant to the above violations, cash, jewelry and precious metals worth approximately $100,000 were
seized.

Additionally, one investor has acknowledged receiving payouts for fabricated profits above his initial
investment and agreed to voluntarily surrender $1.17 million to the Secret Service.

To date, this case has resulted in four federal arrests and the seizure of approximately $2.3 million in cash,
firearms, artwork and precious metals. Investigative efforts to identify additional suspects and assets are
ongoing. USSS anticipates returning forfeited funds in this case to over 1,000 identified victims.


U.S. Secret Service Seizes $452,445.45 From America Wholesale Lender For Fraudulently Altering
the Terms of Home Loans
Information included in the following forfeiture article is attributed to information provided by the USSS Liaison to TEOAF.

This investigation began in December 2011, when the Louisville Field Office was contacted by the U.S.
Attorney’s Office regarding a scheme in which multiple conspirators fraudulently obtained money from

8            TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2013
victims by claiming the ability to modify their home loans. The investigation discovered that conspirators
fraudulently removed promissory notes owned by Countrywide Home Loans and subsequently
incorporated a business titled America’s Wholesale Lender in order to fraudulently alter the terms of
mortgages. The total loss in this case is approximately $3.6 million.

On November 13, 2012, a TD Bank account totaling $452,445.45, held in the name of America’s
Wholesale Lender, was seized based on a federal seizure warrant for violations of 18 USC sections 1343
and 1344 (wire fraud and bank fraud). The USSS anticipates returning a prorated percentage of the
forfeited funds to the identified victims in this case.



Coast Guard
Departm ent of Hom eland Security

Coast Guard Offloads $27 Million of Seized Cocaine
Information included in the following forfeiture article is attributed to: United States Coast Guard (USCG) United States
Southern Command news release, dated April 26, 2013, entitled: “Coast Guard offloads $27 million of seized cocaine”

Crewmembers from the Coast Guard Cutter Bernard C. Webber offloaded and seized 2,200 pounds of
cocaine, worth an estimated value of $27 million, at Base Miami Beach, Florida, on April 26, 2013.

While conducting a law enforcement patrol on April 18, 2013, the crew of the Coast Guard Cutter
Gallatin located a 68-foot fishing vessel in the western Caribbean Sea. The crew boarded the vessel,
located 2,200 pounds of cocaine, and detained three suspected smugglers before transferring them to FBI
agents in Miami.

This interdiction was carried out as part of Operation Martillo, a component in the United States
government’s efforts to counter the use of the Central American coastal regions as transshipment routes
for illicit drugs, weapons, and cash. Operation Martillo is an international operation focused on sharing
information and bringing together air, land, and maritime assets from the U.S. Department of Defense, the
Department of Homeland Security, and Western Hemisphere and European partner nation agencies to
counter this illicit trafficking.




                           Figure 6: 2,200 pounds of cocaine seized during Operation Martillo.

                                                 SECTION I - OVERVIEW                                                       9
Coast Guard Cutter Unloads $45 million worth of Seized Cocaine
Information included in the following forfeiture article is attributed to: USCG
United States Southern Command news release, dated December 5, 2012, entitled: “Coast Guard cocaine seizure unloaded in
St. Petersburg: $45 million worth of cocaine to be destroyed”

On December 5, 2012, more than 50 bales of cocaine were off-loaded from the Coast Guard cutter
Decisive in St. Petersburg to be destroyed. The estimated street value was $45 million.

The drugs came from two separate seizures south of Puerto Rico. In the first, one boat jettisoned 38 bales
of cocaine and got away. In the second, a sail boat was boarded, 16 bales of cocaine were discovered, and
the sole crew member detained.

These drug seizures are part of an increased effort in Puerto Rico and the U.S. Virgin Islands against drug
running from South America.




10           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2013
Program and Fund Highlights

The Treasury Forfeiture Fund is a “special receipt account.” Such accounts represent federal fund
collections earmarked by law for a specific purpose. The enabling legislation for the Treasury Forfeiture
Fund (31 U.S.C. § 9703) defines those purposes for which Treasury forfeiture revenue may be used.
Once property or cash is seized, there is a forfeiture process. Upon forfeiture, seized currency, initially
deposited into a suspense account, or holding account, is transferred to the Fund as forfeited revenue.
Once forfeited, physical properties are sold and the proceeds are deposited into the Fund as forfeited
revenue. It is this forfeiture revenue that comprises the budget authority for meeting expenses of running
Treasury’s forfeiture program.

Expenses of the Fund are set in a relative priority so that unavoidable or “mandatory” costs are met first
as a matter of policy. Expenses may not exceed revenue in the Fund. The Fund has several different
spending authorities. Each of them is described below.

M andatory Authority

The mandatory authority items are generally used to meet “business expenses” of the Fund, including
expenses of storing and maintaining seized and forfeited assets, valid liens and mortgages, investigative
expenses incurred in pursuing a seizure, information and inventory systems, and certain costs of local
police agencies incurred in joint law enforcement operations. Following forfeiture, equitable shares are
paid to state and local law enforcement agencies that contributed to the seizure activity at a level
proportionate to their involvement.

It is a strategic goal of the Fund to emphasize and monitor high impact forfeitures. To make significant
forfeitures requires longer, more in-depth investigations. To this end, Fund management emphasizes the
use of mandatory funding authorities that fuel large case initiatives. These authorities include the
Purchase of Evidence and Information, expenses associated with Joint Operations, Investigative Expenses
Leading to Seizure, and Asset Identification and Removal Groups. In recent years, funding provided to
computer forensic investigative tools has yielded high impact results.

Secretary’s Enforcem ent Fund

The Secretary’s Enforcement Fund (SEF) is derived from equitable shares received from the Justice
Department’s forfeiture fund for work done by law enforcement bureaus participating in the Treasury
Forfeiture Fund leading to Justice forfeitures. SEF revenue is available for federal law enforcement
purposes of any Treasury law enforcement organization or law enforcement bureau that participates in the
Treasury Forfeiture Fund. In FY 2013, the Fund expensed just over $12.1 million in SEF authority as
compared to $9.5 million in FY 2012, an increase of about $2.6 million. The allocation of SEF resources
to bureaus was restricted in FY 2012 and FY 2013 by the need to meet enacted budget rescissions.

Super Surplus

Super Surplus represents the remaining unobligated balance after an amount is reserved for Fund
operations in the next fiscal year. Super Surplus can be used for any federal law enforcement purpose. In
FY 2013, the Fund expensed $82.3 million in Super Surplus authority as compared to $78.7 million in FY
2012, an increase of 4.6 percent.



                                         SECTION I - OVERVIEW                                           11
Program Performance

Strategic View

Fund management continues to focus on strategic cases and investigations that result in high-impact
forfeitures. We believe this approach affects the greatest damage to criminal organizations while
accomplishing the ultimate objective – to disrupt and dismantle criminal activity. Generally, significant
forfeitures require longer, more in-depth investigations. To this end, Fund management emphasizes the
use of mandatory funding authorities that fuel large case initiatives including Purchase of Evidence and
Information, expenses associated with Joint Operations, Investigative Expenses Leading to Seizure, Asset
Identification and Removal teams and state-of-the-art Computer Forensics capability.

FY 2013 was a banner revenue year by our member bureaus and another successful year in equitable
share deposits received from the Department of Justice (DOJ) forfeiture fund for forfeitures in which one
or more of our member bureaus played a role. Equitable shares totaled $76.7 million in FY 2013 as
compared to $108.8 million in FY 2012. In addition, the Fund continues to support record levels of
sharing of federal forfeitures with the state and local governments that contributed to the successful
seizure and forfeiture activity of the Fund. The Fund expensed $300.5 million for state and local
equitable sharing expenses in FY 2013 as compared to $107.4 million in FY 2012. In FY 2012, the Fund
expensed $3.5 million for equitable sharing expenses with foreign countries that assisted in cases during
FY 2012; this year the Fund did not have the opportunity to share with foreign law enforcement agencies.
These are important resources afforded by policy of the Treasury Forfeiture Fund to protect and preserve
the valuable working relationships between our federal law enforcement bureaus and the critically
important state, local and foreign law enforcement agencies that work with them in an investigative
capacity day-in and day-out.

Strategic M ission and Goal

The mission of the Treasury Forfeiture Fund is to affirmatively influence the consistent and strategic use
of asset forfeiture by law enforcement bureaus to disrupt and dismantle criminal enterprises. The goal of
the Treasury Forfeiture Fund is to support the Department of the Treasury’s national asset forfeiture
program in a manner that results in federal law enforcement’s continued and effective use of asset
forfeiture as a high-impact law enforcement sanction to disrupt and dismantle criminal activity. To
achieve our mission and goal, the program must be administered in a fiscally responsible manner that
seeks to minimize the administrative costs incurred, thereby maximizing the benefits for law enforcement
and the society it protects.

M ulti-Departm ental Fund

The Treasury Forfeiture Fund continued in its capacity as a multi-Departmental Fund in FY 2013,
representing the interests of law enforcement components of the Departments of Treasury and Homeland
Security. FY 2013 posed continued management challenges including oversight of significant general
property contract expenses associated with an increasingly complex forfeiture program. In addition,
commensurate with the successful revenue year, there were significant expenses incurred by the bureaus
to run their programs. In the midst of this period of growth and change, the Fund’s family of law
enforcement bureaus continued their hard work of federal law enforcement and the application of asset
forfeiture as a sanction to bring criminals to justice.


12         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2013
FY 2013 had its most robust year ever, with regular revenue of $1.7 billion from all sources, quite
successful, compared with FY 2012 revenue of $516.6 million. As we enter fiscal year 2014, the Fund
remains focused on support for strategic investigative initiatives that will have the greatest impact on
national and international criminal enterprise including valuable training and investigative expense
funding which emphasizes high-impact cases.


P erform ance M easure

In FY 2013, the Fund measured performance through the use of the following performance measure:
Percent of forfeited cash proceeds resulting from high-impact cases. This measures the percentage of
forfeited cash proceeds resulting from high-impact cases (those with currency seizures in excess of
$100,000). Focusing on strategic cases and investigations which result in high-impact seizures will affect
the greatest damage to criminal organizations while accomplishing the ultimate objective – to disrupt and
dismantle criminal activity.

R esults

The Fund performance measure and result for FY 2013 is as follows:


                                                       FY 2012         FY 2013         FY 2013
           Performance Measure                          Actual          Target          Actual

Percent of forfeited cash proceeds resulting from       76.38%           80%              95%
high-impact cases

A target of 75 percent high-impact cases was set for FY 2010 and prior years since inception of the
performance measure in FY 2002. However, for FY 2011, the target was increased to 80 percent,
reflecting member bureaus’ prior success in meeting the previous target. This is a fixed target for the
Fund designed to afford our law enforcement bureaus the opportunity to undertake smaller seizure activity
that is important to the overall federal law enforcement mission. The final percentage for FY 2013 was
95 percent, well exceeding the new target. This compares with our FY 2011 and FY 2012 performance of
91.44 percent and 76.38 percent, respectively. Our member bureaus exceeded the target by 15 percent
because of one seizure for $881 million; if we excluded that seizure from the calculation, our performance
measure for FY 2013 would be 88 percent.

The performance of our member bureaus is excellent and reflects Fund management’s longstanding
emphasis on high-impact forfeiture strategies as well as the use of Fund authorities to assist member
bureaus with larger cases that may take longer or require additional resources not otherwise available.
This measure was put into effect beginning with FY 2002, and in all but 3 years, member bureaus met the
target for high-impact forfeitures.

This measure is calculated by dividing the total amount of forfeited cash proceeds from cases greater than
$100,000 by the total amount of forfeited cash proceeds for all cases.




                                         SECTION I - OVERVIEW                                          13
Financial Statement Highlights

The following provides a brief explanation for each major section of the audited financial statements
accompanying this report for the fiscal year ended September 30, 2013.

These statements have been prepared to disclose the financial position of the Fund, its net costs, changes
in net position, and budgetary resources, pursuant to the requirements of the Chief Financial Officers Act
of 1990 and the Government Management Reform Act of 1994 (GMRA). While the financial statements
have been prepared from the books and records of the Fund in accordance with the formats prescribed by
the Office of Management and Budget, the statements are different from the financial reports used to
monitor and control budgetary resources that are prepared from the same books and records and are
subsequently presented in federal budget documents. Further, the notes to the financial statements and the
independent auditor’s opinion and reports on internal control over financial reporting, and compliance and
other matters are also integral components to understanding fully the financial highlights of Fund
operations described in this chapter.

Statements: Changes in Net Position

Follows are brief highlights from the Statements of Changes in Net Position for FY 2013 and 2012.

Net Position – End of Year. For FY 2013, the Net Position for the Fund at the end of the year, an
indicator of the future capability to support ongoing operations of the Fund, totaled $2.487 billion versus
$1.556 billion at the end of FY 2012. Both years closed with a strong and viable net position with which
to commence the next fiscal year’s operations.

Total Gross Non-Exchange Revenues. This line item on the Statements of Changes in Net Position is
the best indicator of regular “business-type” income of the account on an annual basis. For FY 2013, the
Fund closed with $1.7 billion in Gross Non-Exchange Revenues and a total of $516.6 million for FY
2012, reflecting two, highly successful revenue years for the Treasury Forfeiture Fund.

Proceeds from Participating with other Federal Agencies. This line item on the Statements of
Changes in Net Position indicates revenue earned from the participation of Treasury Forfeiture Fund law
enforcement bureaus in the seizures leading to forfeiture of bureaus that participate in the Department of
Justice Assets Forfeiture Fund or with the forfeiture fund of the U.S. Postal Service (Postal Service). It is
noted that this category of revenue is recognized when received on deposit by the Treasury Forfeiture
Fund. Therefore, there is no accrual recorded on the Fund’s financial statements for this category of
revenue.

As of the close of FY 2013, Treasury Forfeiture Fund bureaus earned a total of $76.7 million in revenue
from participation in the seizures leading to forfeiture of the Justice and Postal Service forfeiture funds as
compared to a total of $108.8 million during FY 2012. Fund management continues to work with the
Department of Justice to identify delays and/or explain downward adjustments to percentages associated
with equitable sharing payments owed to the Treasury Forfeiture Fund. This revenue affords Treasury
management significant funding flexibilities for our participating agencies as the authority is broad and
not confined to funding program costs; it can be used for any law enforcement purpose of our
participating bureaus. The allocation of this type of revenue for FY 2012 and FY 2013 was restricted by
the need to meet enacted budget rescissions.


14          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2013
Cost of Operations. For FY 2013, the Cost of Operations totaled $203.1 million, up from $161.0 million
in FY 2012.

Investment Interest Income. The Fund is authorized to invest cash balances in Treasury securities. As
of September 30, 2013, investments totaled $4.1 billion, up from $3.1 billion invested as of September 30,
2012. Given the increased investment balance, and with continued negligible interest rates on Treasury
securities during FY 2013, investment income totaled just under 1.8 million in FY 2013, as compared to
just over $1 million in FY 2012.

Equitable Sharing with Federal, State and Local Governments, and Foreign Countries. Each year,
the Fund pays tens of millions of dollars to state and local law enforcement agencies, and foreign
governments, for their participation in seizures that lead to forfeitures of the Treasury Forfeiture Fund.
State and local law enforcement agencies can use these resources to augment their law enforcement
budgets to fight crime in their jurisdictions. Without these funds, budgets of the local municipalities
would be taxed to provide these important resources or the need would go unmet. During FY 2013, the
Fund shared a total of $408.2 million with other federal, state and local law enforcement agencies; the
fund did not have an opportunity to share with foreign countries this year. This compares with $114.4
million shared with other federal, state and local law enforcement agencies during FY 2012, and another
$3.5 million with foreign countries.

Victim Restitution. During FY 2013, the Fund paid $74.6 million in restitution to victims as compared
to $46.6 million in FY 2012.

Summary of Statements of Changes in Net Position. The Fund closed with a strong net position in FY
2013. Management will continue to emphasize high-impact cases by participating law enforcement
bureaus. The FY 2013 performance with forfeiture revenue earnings of $1.7 billion from all sources,
while exceeding the new higher performance measure target rate of high-impact cases, is truly a credit to
the dedicated law enforcement personnel of our participating law enforcement bureaus.

Statements: Net Cost

Costs of the Forfeiture Program – Intra-governmental. After revenue is applied toward policy
mandates such as equitable sharing, shown in the Statements of Changes in Net Position as negative
revenue or applied non-exchange revenue, the remaining financing supports the law enforcement
activities of the Fund and pays for the storage of seized and forfeited property and sales associated with
the disposition of forfeited property.

On the Statements of Net Cost, the Net Cost of Operations totaled $203.1 million in FY 2013, up from
$161.0 million in FY 2012.

Intra-governmental. This cost category totaled $133.6 million in FY 2013, up from $100.5 million in FY
2012. The amounts represent costs incurred by participating bureaus in running their respective forfeiture
programs.

National Seized Property Contracts and Other. One of the largest program costs of the Fund is the
storage, maintenance and disposal of real and personal property. During FY 2013, general property was
maintained by VSE Corporation and real property was maintained by the CWS Asset Management &
Sales Group, both contracts of the Department of the Treasury. In FY 2013, expenses of these two
contracts, which comprised over 99% of the total expenses for this line, including other contracts and
depreciation, totaled $54.8 million, up from $48.3 million expensed in FY 2012.
                                         SECTION I - OVERVIEW                                          15
Balance Sheet

Assets, Liabilities and Net Position

Total assets of the Fund increased in FY 2013 to $4.4 billion, up from $3.4 billion in FY 2012, an
increase in asset value of over 29.4 percent. If seized currency and other monetary assets, which are
assets in the custody of the government but not yet owned by the government, are backed out of both
figures, the adjusted total assets of the Fund increased to $2.93 billion in FY 2013, up from $1.75 billion
in FY 2012. During FY 2013, total liabilities of the Fund remained basically the same at $1.9 billion,
matching the $1.9 billion in FY 2012. If seized currency and other monetary assets, which are also shown
as a liability because they are not yet owned by the government, are backed out of both figures, the
adjusted total liabilities of the Fund decreases to $443.3 million in FY 2013, up from $195.5 million in
FY 2012.

With increasing asset amounts and relatively stable costs, the Cumulative Results of Operations, i.e.,
retained earnings, increased at the end of FY 2013 to a total of $2.487 billion, up from $1.556 billion at
the end of FY 2012.

Financial and Program Performance - What is needed and planned. OMB Circular A-136, Financial
Reporting Requirements, requires that agencies include an explanation of what needs to be done and what
is being planned to improve financial or program performance. In this regard, Fund management
continues to work closely with member bureaus, through the financial planning process, to review
revenue and expense projections during the operating year.

Auditor’s Findings

FY 2013 Audit. The Fund’s independent auditors have given the FY 2013 financial statements an
Unqualified Opinion with no material weaknesses or significant deficiencies in internal control over
financial reporting identified. The auditor’s report on compliance and other matters disclosed no instances
of noncompliance or other matters that are required to be reported under Government Auditing Standards
or OMB Bulletin No. 14-02, Audit Requirements for Federal Financial Statements. There are no
management letter findings for FY 2013.

Summary of Financial Statement Highlights

Net Position. To summarize, Fund management concluded a highly productive FY 2013 “in the black,”
with the necessary resources to commence the business of the asset forfeiture program for FY 2014. Fund
management declared a Super Surplus from FY 2013 operations and will work to recognize the hard work
of our participating bureaus in the allocation of these resources.




16         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2013
A Look Forw ard


Fund management will continue to work with our large and diverse array of federal law enforcement
bureaus as they undertake increasingly sophisticated methods and global efforts to secure the financial
and commercial markets of the nation and the world given the interdependence of financial systems. Our
bureaus support immigration enforcement that is designed to identify illegal smuggling to deter its impact
on the nation’s financial infrastructure and to ensure that human smugglers do not harm unsuspecting
victims keen on seeking a new if illegal start in the United States. Investigative initiatives intended to
interrupt the financial support for terrorism remains a critical part of the work of federal law enforcement.
Emphasis will continue to be placed on ever-evolving state-of-the-art investigative techniques, high-
impact major case initiatives, and training to support these areas of emphasis. This has and will continue
to be the key to the growing success and law enforcement reach of the Treasury Forfeiture Fund.

Limitations of the Financial Statements. As required by OMB Circular A-136, Fund management
makes the following statements regarding the limitations of the financial statements:

•   The financial statements have been prepared to report the financial position and results of operations
    of the entity, pursuant to the requirements of 31 USC § 3515(b).

•   While the statements have been prepared from the books and records of the entity in accordance with
    the formats prescribed by OMB, the statements are in addition to the financial reports used to monitor
    and control budgetary resources which are prepared from the same books and records.

•   The statements should be read with the realization that they are for a component of the U.S.
    government, a sovereign entity. One implication of this is that liabilities cannot be liquidated without
    legislation that provides resources to do so.




                                          SECTION I - OVERVIEW                                            17
THIS PAGE INTENTIONALLY LEFT BLANK
          SECTION II

INDEPENDENT AUDITOR’S REPORTS
THIS PAGE INTENTIONALLY LEFT BLANK
                   Certified Public Accountants
                   & Consultants


                                      Independent Auditor's Report on Financial Statements
www.gkacpa.com
                            Inspector General
                            United States Department of the Treasury
                            Washington, D.C.

                            Report on the Financial Statements

                            We have audited the accompanying financial statements of the Department of
                            the Treasury Forfeiture Fund (the Fund), which comprise the balance sheets as
                            of September 30, 2013 and 2012, and the related statements of net cost,
                            changes in net position, and budgetary resources for the years then ended, and
                            the related notes to the financial statements.

                            Management’s Responsibility for the Financial Statements

                            Management is responsible for the preparation and fair presentation of these
                            financial statements in accordance with accounting principles generally
                            accepted in the United States of America; this includes the design,
                            implementation, and maintenance of internal control relevant to the preparation
                            and fair presentation of financial statements that are free from material
                            misstatement, whether due to fraud or error.

                            Auditor’s Responsibility

                            Our responsibility is to express an opinion on these financial statements based
                            on our audits. We conducted our audits in accordance with auditing standards
                            generally accepted in the United States of America; the standards applicable to
                            financial audits contained in Government Auditing Standards, issued by the
                            Comptroller General of the United States; and applicable provisions of Office
                            of Management and Budget Bulletin No. 14-02, Audit Requirements for
                            Federal Financial Statements. Those standards require that we plan and
                            perform the audits to obtain reasonable assurance about whether the financial
                            statements are free from material misstatement.

                            An audit involves performing procedures to obtain audit evidence about the
                            amounts and disclosures in the financial statements. The procedures selected
                            depend on the auditor’s judgment, including the assessment of the risks of
  1015 18th Street, NW      material misstatement of the financial statements, whether due to fraud or
        Suite 200
 Washington, DC 20036       error.
   Tel: 202-857-1777
   Fax: 202-857-1778
                                                   Member of the American Institute of Certified Public Accountants
In making those risk assessments, the auditor considers internal control relevant to the Fund’s
preparation and fair presentation of the financial statements in order to design audit procedures that
are appropriate in the circumstances, but not for the purpose of expressing an opinion on the
effectiveness of the Fund’s internal control. Accordingly, we express no such opinion. An audit also
includes evaluating the appropriateness of accounting policies used and the reasonableness of
significant accounting estimates made by management, as well as evaluating the overall presentation
of the financial statements.

We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis
for our audit opinion.

Opinion

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of the Department of the Treasury Forfeiture Fund as of September 30, 2013 and
2012, and its net costs, changes in net position, and budgetary resources for the years then ended in
accordance with accounting principles generally accepted in the United States of America.

Other Matters

Required Supplementary Information

Accounting principles generally accepted in the United States of America require that the information
in Section I: Overview, and Section IV: Required Supplemental Information be presented to
supplement the basic financial statements referred to in the first paragraph of this report. Such
information, although not a part of the basic financial statements, is required by the Federal
Accounting Standards Advisory Board who considers it to be an essential part of financial reporting
for placing the basic financial statements in an appropriate operational, economic, or historical
context. We have applied certain limited procedures to the required supplementary information in
accordance with auditing standards generally accepted in the United States of America, which
consisted of inquiries of management about the methods of preparing the information and comparing
the information for consistency with management’s responses to our inquiries, the basic financial
statements, and other knowledge we obtained during our audits of the basic financial statements. We
do not express an opinion or provide any assurance on the information because the limited procedures
do not provide us with sufficient evidence to express an opinion or provide any assurance.

Other Information

Our audits were conducted for the purpose of forming an opinion on the basic financial statements
taken as a whole. The information in the Message from the Director, and Section V: Other
Accompanying Information is presented for the purposes of additional analysis and is not a required
part of the basic financial statements. Such information has not been subjected to the auditing
procedures applied in the audits of the basic financial statements, and accordingly, we do not express
an opinion or provide any assurance on it.


                     SECTION II –INDEPENDENT AUDITOR’S REPORT                                      19
Other Reporting Required by Government Auditing Standards

In accordance with Government Auditing Standards, we have also issued our reports dated November
13, 2013, on our consideration of the Fund’s internal control over financial reporting, and on our tests
of its compliance with certain provisions of laws, regulations, contracts and other matters. The
purpose of these reports is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing, and not to provide an opinion on internal
control over financial reporting or on compliance. Those reports are an integral part of an audit
performed in accordance with Government Auditing Standards in considering the Fund’s internal
control over financial reporting and compliance.




Washington, DC
November 13, 2013




20         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2013
                   Certified Public Accountants
                   & Consultants


                                 Independent Auditor's Report on Internal Control over Financial
www.gkacpa.com                                            Reporting

                            Inspector General
                            United States Department of the Treasury
                            Washington, D.C.

                            We have audited, in accordance with auditing standards generally accepted in
                            the United States of America; the standards applicable to financial audits
                            contained in Government Auditing Standards, issued by the Comptroller
                            General of the United States; and applicable provisions of Office of
                            Management and Budget (OMB) Bulletin No. 14-02, Audit Requirements for
                            Federal Financial Statements, the financial statements of the Department of
                            the Treasury Forfeiture Fund (the Fund), which comprise the balance sheet as
                            of September 30, 2013, and the related statements of net cost, changes in net
                            position, and budgetary resources for the year then ended, and the related notes
                            to the financial statements, and have issued our report thereon dated November
                            13, 2013.

                            In planning and performing our audit of the financial statements, we
                            considered the Fund’s internal control over financial reporting (internal
                            control) to determine the audit procedures that are appropriate in the
                            circumstances for the purpose of expressing our opinion on the financial
                            statements, but not for the purpose of expressing an opinion on the
                            effectiveness of the Fund’s internal control. Accordingly, we do not express an
                            opinion on the effectiveness of the Fund’s internal control.

                            A deficiency in internal control exists when the design or operation of a
                            control does not allow management or employees, in the normal course of
                            performing their assigned functions, to prevent, or detect and correct,
                            misstatements on a timely basis. A material weakness is a deficiency, or a
                            combination of deficiencies, in internal control, such that there is a reasonable
                            possibility that a material misstatement of the entity’s financial statements will
                            not be prevented, or detected and corrected on a timely basis.

                            Our consideration of internal control was for the limited purpose described in
                            the second paragraph and was not designed to identify all deficiencies in
                            internal control that might be material weaknesses.


  1015 18th Street, NW
        Suite 200
 Washington, DC 20036
   Tel: 202-857-1777
                                                    Member of the American Institute of Certified Public Accountants
   Fax: 202-857-1778
Given these limitations, during our audit we did not identify any deficiencies in internal control that
we consider to be material weaknesses. However, material weaknesses may exist that have not been
identified.

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of internal control and the
results of that testing, and not to provide an opinion on the effectiveness of the Fund’s internal
control. This report is an integral part of an audit performed in accordance with Government Auditing
Standards in considering the Fund’s internal control. Accordingly, this communication is not
suitable for any other purpose.




Washington, DC
November 13, 2013




22         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2013
                 Certified Public Accountants
                 & Consultants



www.gkacpa.com

                              Independent Auditor's Report on Compliance and Other Matters

                          Inspector General
                          United States Department of the Treasury
                          Washington, D.C.

                          We have audited, in accordance with auditing standards generally accepted in
                          the United States of America; the standards applicable to financial audits
                          contained in Government Auditing Standards, issued by the Comptroller
                          General of the United States; and applicable provisions of Office of
                          Management and Budget (OMB) Bulletin No. 14-02, Audit Requirements for
                          Federal Financial Statements, the financial statements of the Department of
                          the Treasury Forfeiture Fund (the Fund), which comprise the balance sheet as
                          of September 30, 2013, and the related statements of net cost, changes in net
                          position, and budgetary resources for the year then ended, and the related notes
                          to the financial statements, and have issued our report thereon dated November
                          13, 2013.

                          As part of obtaining reasonable assurance about whether the Fund’s financial
                          statements are free from material misstatement, we performed tests of the
                          Fund’s compliance with certain provisions of laws, regulations, and contracts,
                          noncompliance with which could have a direct and material effect on the
                          determination of financial statement amounts, and certain provisions of other
                          laws and regulations specified in OMB Bulletin No. 14-02. However,
                          providing an opinion on compliance with those provisions was not an objective
                          of our audit, and accordingly, we do not express such an opinion.

                          The results of our tests disclosed no instances of noncompliance or other
                          matters that are required to be reported under Government Auditing Standards
                          or OMB Bulletin No. 14-02.

                          Purpose of this Report

                          The purpose of this report is solely to describe the scope of our testing of
                          compliance and the result of that testing, and not to provide an opinion on the
                          Fund’s compliance.
  1015 18th Street, NW
        Suite 200
 Washington, DC 20036
   Tel: 202-857-1777                             Member of the American Institute of Certified Public Accountants
   Fax: 202-857-1778
This report is an integral part of an audit performed in accordance with Government Auditing
Standards in considering the Fund’s compliance. Accordingly, this communication is not suitable for
any other purpose.




Washington, DC
November 13, 2013




24         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2013
THIS PAGE INTENTIONALLY LEFT BLANK
          SECTION III

FINANCIAL STATEMENTS AND NOTES
THIS PAGE INTENTIONALLY LEFT BLANK
                           Department of the Treasury Forfeiture Fund
                                      BALANCE SHEETS
                               As of September 30, 2013 and 2012
                                      (Dollars in thousands)


                                                                                     2013          2012
Assets:
Intragovernmental:
        Fund balance with Treasury                                           $      26,091   $ 14,526
        Investments and related interest receivable (Note 3)                     4,062,862    3,136,274
        Advances                                                                        75           40
   Total Intragovernmental                                                       4,089,028    3,150,840

       Cash and other monetary assets (Note 5)                                    229,086        205,137
       Accounts Receivable                                                          1,554          1,987
                                                                                  230,640        207,124
      Forfeited property (Note 6)
         Held for sale, net of mortgages, liens and claims                       59,670          83,143
         To be shared with federal, state or local, or foreign governments          532           1,157
      Total forfeited property, net of mortgages, liens and claims             _ 60,202          84,300
      Capitalized software, net of accumulated depreciation (Note 9)                873             660
Total Assets                                                                 $4,380,743      $3,442,924

Liabilities:

  Intragovernmental:
     Accounts payable                                                        $     67,421    $    32,665
 Total Intragovernmental                                                           67,421         32,655

      Seized currency and other monetary instruments (Note 8)                    1,450,864    1,691,498
      Distributions payable (Note 10)
          State and local agencies and foreign governments                        308,565         71,123
      Accounts payable                                                              7,063          7,443
      Deferred revenue from forfeited assets                                       60,202         84,300

Total Liabilities                                                                1,894,115    1,887,029

Net Position:
  Cumulative results of operations (Note 11)                                     2,486,628    1,555,895

Total Liabilities and Net Position                                           $4,380,743      $3,442,924

               The accompanying notes are an integral part of these financial statements.



                         SECTION III - FINANCIAL STATEMENTS AND NOTES                                 25
                           Department of the Treasury Forfeiture Fund
                                  STATEMENTS OF NET COST
                         For the years ended September 30, 2013 and 2012
                                        (Dollars in thousands)



                                                                                 2013            2012
Program:
ENFORCEMENT

  Intragovernmental:
       Seizure investigative costs and asset management                    $    99,030     $    62,942
       Other asset related contract services                                     7,151           7,290
       Data systems, training and others                                        27,457          30,255

  Total Intragovernmental                                                      133,638         100,487

  With the Public:
     National contract services seized property and other                       54,818          48,328
     Joint operations                                                           14,627          12,198

  Total with the Public                                                         69,445          60,526


Net Cost of Operations                                                    $    203,083     $ 161,013




              The accompanying notes are an integral part of these financial statements.


   26         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2013
                           Department of the Treasury Forfeiture Fund
                      STATEMENTS OF CHANGES IN NET POSITION
                       For the years ended September 30, 2013 and 2012
                                      (Dollars in thousands)


                                                                                  2013           2012

Net Position – Beginning of year                                            $ 1,555,895     $ 1,452,922
Financing Sources (Non-Exchange Revenues):
   Intragovernmental
       Investment interest income                                                 1,768          1,047
   Public
       Forfeited currency and monetary instruments                            1,560,460        344,789
       Sales of forfeited property net of mortgages and claims                   51,901         52,213
       Proceeds from participating with other federal agencies                   76,747        108,781
       Value of property transferred in equitable sharing                         2,490          1,600
       Payments in lieu of forfeiture, net of refunds (Note 19)                   6,957          2,914
       Reimbursed costs                                                           3,029          2,457
       Other                                                               ______7,625           2,828
   Total Gross Non-Exchange Revenues                                          1,710,977        516,629
Less: Equitable Sharing
   Intragovernmental
       Federal                                                                (107,668)         (7,020)
   Public
       State and local agencies                                               (300,537)      (107,365)
       Foreign countries                                                             0         (3,488)
       Victim restitution                                                      (74,583)       (46,589)
                                                                              (375,120)      (157,442)
   Total Equitable Sharing                                                    (482,788)      (164,462)

Total Non-Exchange Revenues, Net                                              1,228,189        352,167

Transfers –Out
  Intragovernmental
   Super surplus (Note 13)                                                     (82,267)        (78,654)
   Secretary’s enforcement fund (Note 14)                                      (12,106)         (9,527)
Total Transfers Out                                                            (94,373)        (88,181)

Total Financing Sources - Net                                                 1,133,816        263,986
Net Cost of Operations                                                        (203,083)      (161,013)

Net Results of Operations                                                      930,733         102,973

Net Position – End of Year                                                  $ 2,486,628     $ 1,555,895

               The accompanying notes are an integral part of these financial statements.

                         SECTION III - FINANCIAL STATEMENTS AND NOTES                               27
                            Department of the Treasury Forfeiture Fund
                          STATEMENTS OF BUDGETARY RESOURCES
                          For the years ended September 30, 2013 and 2012
                                         (Dollars in thousands)



                                                                                   2013          2012

Budgetary Resources:

   Unobligated balances- beginning of year                                 $     144,913   $ 646,405
   Recoveries of prior year unpaid obligations                                    23,887      29,747
   Unobligated balance from prior year budget authority, net                     168,800     676,152
   Budget authority                                                            1,627,422      (3,822)

Total Budgetary Resources                                                  $ 1,796,222     $ 672,330

Status of Budgetary Resources:

   Obligations incurred                                                    $    908,113    $ 527,417

   Unobligated balances – apportioned                                      $    888,109    $ 144,913
   Unobligated balances – end of year                                      $    888,109    $ 144,913

Total Status of Budgetary Resources                                        $ 1,796,222     $ 672,330


Change in Obligated Balance:
   Obligated balance, net-beginning of year                                $     550,841   $ 539,063
   Obligations incurred                                                          908,113      527,417
   Less: Gross outlays                                                         (510,622)    (485,892)
   Less: Recoveries of prior year unpaid obligations, actual                    (23,887)     (29,747)

Obligated balance, net – end of year                                       $    924,445    $ 550,841

Budget Authority and Outlays

  Budget authority, net                                                    $ 1,627,422     $   (3,822)

  Net outlays                                                              $    510,622    $   485,892


             The accompanying notes are an integral part of these financial statements
                                               .



   28           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2013
Note 1: Reporting Entity

The Department of the Treasury Forfeiture Fund (Treasury Forfeiture Fund or the Fund) was
established by the Treasury Forfeiture Fund Act of 1992, Public Law 102-393 (the TFF Act), and is
codified at 31 USC 9703. The Fund was created to consolidate all Treasury law enforcement bureaus
under a single forfeiture fund program administered by the Department of the Treasury (Treasury).
Treasury law enforcement bureaus fully participating in the Fund upon enactment of this legislation
were the U.S. Customs Service (Customs); the Internal Revenue Service – Criminal Investigation
(IRS-CI); the United States Secret Service (Secret Service); the Bureau of Alcohol, Tobacco and
Firearms (ATF); the Financial Crimes Enforcement Network (FinCEN); and the Federal Law
Enforcement Training Center (FLETC). FinCEN and FLETC contribute no revenue to the Fund,
however in recent years, significant amounts of Super Surplus funds have been allocated to FinCEN
towards Bank Secrecy Act (BSA) Information Technology (IT) modernization, a tool used in the
fight against money laundering and other criminal activity. The U.S. Coast Guard, formerly part of
the Department of Transportation, now part of the Department of Homeland Security (DHS), also
participates in the Fund. However, all Coast Guard seizures are treated as Customs seizures because
the Coast Guard lacks forfeiture authority.

With enactment of the Homeland Security Act of 2002 (Homeland Security Act), law enforcement
bureaus currently participating in the Fund are: the Internal Revenue Service - Criminal Investigation
(IRS-CI) of Treasury, Customs and Border Protection (CBP), Immigration and Customs Enforcement
(ICE) and the U.S. Secret Service (USSS) of DHS. The U.S. Coast Guard of DHS joins these
bureaus. The Fund continues in its capacity as a multi-departmental fund, representing the interests of
law enforcement components of the Departments of Treasury and Homeland Security.

The Fund is a special fund that is accounted for under Treasury symbol number 20X5697. From this
no-year account, expenses may be incurred consistent with 31 USC 9703, as amended. A portion of
these expenses, referred to as discretionary expenses, are subject to annual appropriation limitations.
Others, referred to as non-discretionary (mandatory) expenses, are limited only by the availability of
resources in the Fund. Both expense categories are limited in total by the amount of revenue in the
Fund. The Fund is managed by Treasury's Executive Office for Asset Forfeiture (EOAF).

The mission of the Treasury Forfeiture Fund is to affirmatively influence the consistent and strategic
use of asset forfeiture by law enforcement bureaus to disrupt and dismantle criminal enterprises. The
goal of the Treasury Forfeiture Fund is to support the Treasury’s national asset forfeiture program in
a manner that results in federal law enforcement’s continued and effective use of asset forfeiture as a
high-impact law enforcement sanction to disrupt and dismantle criminal activity. Under a
Memorandum of Understanding (MOU) with Treasury, CBP acts as the executive agent for certain
operations of the Fund. Pursuant to that executive agency role, CBP’s National Finance Center (NFC)
is responsible for accounting and financial reporting for the Fund, including timely and accurate
reporting and compliance with Treasury, the Comptroller General and the Office of Management and
Budget (OMB) regulations and reporting requirements.




                         SECTION III - FINANCIAL STATEMENTS AND NOTES                               29
Note 2: Summary of Significant Accounting Policies

Basis of Accounting and Presentation

The Fund began preparing audited financial statements in Fiscal Year 1993 as required by the Fund’s
enabling legislation, 31 USC 9703(f)(2)(H), and the Chief Financial Officers Act of 1990. Beginning
with the Fiscal Year 1996 report, the Government Management Reform Act of 1994 (GMRA)
requires executive agencies, including the Treasury, to produce audited consolidated accountability
reports and related footnotes for all activities and funds.

The financial statements have been prepared from the accounting records of the Fund in conformity
with accounting principles generally accepted in the United States of America (GAAP) and specified
by OMB in OMB Circular A-136, Financial Reporting Requirements (OMB Circular A-136). GAAP
for federal entities is prescribed by the Federal Accounting Standards Advisory Board (FASAB),
which is designated the official accounting standards setting body of the Federal Government by the
American Institute of Certified Public Accountants.

Allowable Fund Expenses

The majority of the revenue recorded by the Fund is utilized for operating expenses or distributed to
state and local law enforcement agencies, other federal agencies, and foreign governments, in
accordance with the various laws and policies governing the operations and activities of the Fund.
Under the TFF Act, the Fund is authorized to pay certain expenses using discretionary or mandatory
funding authorities of the Fund.

Discretionary authorities include but may not be limited to: the payment of expenses for the purchase
of awards for information or assistance leading to a civil or criminal forfeiture involving any law
enforcement bureau participating in the Fund; purchase of evidence or information that meet the
criteria set out in 31 USC 9703(a)(2)(B); payment for equipment for vessels, vehicles, or aircraft
available for official use as described by 31 USC 9703(a)(2)(D) and (F); reimbursement of private
persons for expenses incurred while cooperating with a Treasury law enforcement organization in
investigations; publication of the availability of certain awards; and payment for training foreign law
enforcement personnel with respect to seizure or forfeiture activities of the Fund. Discretionary
expenses are subject to an annual, definite Congressional appropriation from revenue in the Fund.

Expenses from the mandatory authorities of the Fund include but are not limited to: all proper
expenses of the seizure, including investigative costs and purchases of evidence and information
leading to seizure, holding costs, security costs, etc., awards of compensation to informers under
section 619 of the Tariff Act (19 USC 1619); satisfaction of liens against the forfeited property, and
claims of parties with interest in forfeited property; expenses incurred by state and local law
enforcement agencies in joint law enforcement operations with law enforcement agencies
participating in the Fund; and equitable sharing payments made to state and local law enforcement
agencies in recognition of their efforts in a Fund seizure leading to forfeiture. These mandatory
expenses are paid pursuant to the permanent indefinite authorities of the Fund; are only limited by
revenue in the Fund each year and do not require additional Congressional action for expenditure.

The Fund's expenses are either paid on a reimbursement basis or paid directly on behalf of a
participating bureau. Reimbursable expenses are incurred by the respective bureaus participating in

   30          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2013
the Fund against their appropriation and then submitted to the Fund for reimbursement. The bureaus
are reimbursed through Inter-Agency Transfers (SF-1081) or Intra-governmental Payments and
Collection (IPAC) System. Certain expenses such as equitable sharing, liens, claims and state and
local joint operations costs are paid directly from the Fund.

Further, the Fund is a component unit of the Treasury with participating bureaus in the DHS. As
such, employees of both Departments may perform certain operational and administrative tasks
related to the Fund. Payroll costs of employees directly involved in the security and maintenance of
forfeited property are also recorded as expenses in the financial statements of the Fund (included in
the line item “seizure investigative costs and asset management” in the statement of net cost.)

Revenue and Expense Recognition

Revenue from the forfeiture of property is deferred until the property is sold or transferred to a state,
local or federal agency. Revenue is not recorded if the forfeited property is ultimately destroyed or
cannot be legally sold.

Revenue from currency is recognized upon forfeiture. Payments in lieu of forfeiture (mitigated
seizures) are recognized as revenue when the payment is received. Revenue received from
participating with certain other federal agencies is recognized when the payment is received.
Operating costs are recorded as expenses and related liabilities when goods are received or services
are performed. Certain probable equitable sharing liabilities existing at year end are accrued based
on estimates.

As provided for in the TFF Act, the Fund invests seized and forfeited currency that is not needed for
current operations. Treasury’s Bureau of Fiscal Service invests the funds in obligations of, or
guaranteed by, the United States Government. Interest is reported to the Fund and recorded monthly
as revenue in the general ledger.

Funds from Dedicated Collections

Funds from dedicated collections are financed by specifically identified revenues, often
supplemented by other financing sources, which remain available over time. These specifically
identified revenues and other financing sources are required by statute to be used for designated
activities, benefits, or purposes, and must be accounted for separately from the Government’s general
revenues. In accordance with SFFAS 43, Funds from Dedicated Collections, all of the TFF’s
revenue meets these criteria and constitutes funds from dedicated collections.

The Federal Government does not set aside assets to pay future benefits or other expenditures
associated with funds from dedicated collections. The cash collected from funds from dedicated
collections is deposited in the U.S. Treasury, which uses the cash for general government purposes.
Treasury securities are issued to the TFF as evidence of its receipts. Treasury securities are an asset to
the TFF and a liability to the U.S. Treasury. Because the TFF and U.S. Treasury are both parts of the
government, these assets and liabilities offset each other from the standpoint of the government as a
whole. For this reason, they do not represent an asset or a liability in the U.S. Government-wide
financial statements.
Treasury securities provide the TFF with authority to draw upon the U.S. Treasury to make future
benefit payments or other expenditures. When the TFF requires redemption of these securities to
make expenditures, the government finances those expenditures out of accumulated cash balances, by

                          SECTION III - FINANCIAL STATEMENTS AND NOTES                                 31
raising taxes or other receipts, by borrowing from the public or repaying less debt or by curtailing
other expenditures. This is the same way that the government finances all other expenditures.

Equitable Sharing (Assets Distributed)

Forfeited property, currency, or proceeds from the sales of forfeited property may be shared with
federal, state and local law enforcement agencies or foreign governments, which provided direct or
indirect assistance in the related seizure. In addition, the Fund may transfer forfeited property to
other federal agencies, which would benefit from the use of the item. A class of asset distribution
was established for victim restitution in 1995. These distributions include property and cash returned
to victims of fraud and other illegal activity. Upon approval by Fund management to share or
transfer the assets, both revenue from distributed forfeited assets and distributions are recognized for
the net realizable value of the asset to be shared or transferred, thereby resulting in no gain or loss
recognized. Revenue and /or expenses are recognized for property and currency, which are
distributed to or shared with non-federal agencies, per SFFAS No. 7, Accounting for Revenue and
Other Financing Sources.

Entity Assets

Entity assets are used to conduct the operations and activities of the Fund. Entity assets comprise
intragovernmental and non-intragovernmental assets. Intragovernmental balances arise from
transactions among federal agencies. These assets are claims of a federal entity against another
federal entity. Entity assets consist of cash or other assets, which could be converted into cash to
meet the Fund's current or future operational needs. Such other assets include investments of forfeited
balances, accrued interest on seized balances, receivables, and forfeited property, which are held for
sale or to be distributed.

•   Fund Balance with Treasury – This represents amounts on deposit with Treasury.

•   Investments and Related Interest Receivable – This includes forfeited cash held by the Fund
    and seized currency held in the Customs Suspense Account that had been invested in short term
    U.S. Government Securities.

•   Receivables – The values reported for other receivables are primarily funds due from the national
    seized property contractor for properties sold; the proceeds of which have not yet been deposited
    into the Fund. No allowance has been made for uncollectible amounts as the accounts recorded as
    a receivable at year end were considered to be fully collectible as of September 30, 2013 and
    2012.

•   Advances – This primarily represents cash transfers to Treasury or law enforcement bureaus
    participating in the Fund for orders to be delivered.

•   Cash and Other Monetary Assets – This includes forfeited currency on hand not yet deposited
    and forfeited currency held as evidence.

•   Forfeited Property and Currency – Forfeited property and currency is recorded in the
    respective seized property and forfeited asset tracking systems at the estimated fair value at the


    32          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2013
    time of seizure. However, based on historical sales experiences for the year, properties are
    adjusted to reflect the market value at the end of the fiscal year for financial statement reporting
    purposes. Direct and indirect holding costs are not capitalized for individual forfeited assets.
    Forfeited currency not deposited into the Fund is included as part of Entity Assets - Cash and
    Other Monetary Assets.

Further, mortgages and claims on forfeited assets are recognized as a valuation allowance and a
reduction of deferred revenue from forfeited assets when the asset is forfeited. The allowance
includes mortgages and claims on forfeited property held for sale and a minimal amount of claims on
forfeited property previously sold. Mortgages and claims expenses are recognized when the related
asset is sold and is reflected as a reduction of sales of forfeited property.

Additionally, SFFAS No. 3, Accounting for Inventory and Related Property, requires certain
additional disclosures in the notes to the financial statements, including an analysis of changes in
seized and forfeited property and currency, for both carrying value and quantities, from that on hand
at the beginning of the year to that on hand at the end of the year. These analyses are disclosed in
Notes 7 and 8.

Non-entity Assets

Non-entity assets held by the Fund are not available for use by the Fund. Non-entity assets comprise
intragovernmental and other assets. Intragovernmental balances arise from transactions among
federal agencies. These assets are claims of a federal entity against another federal entity. Non-
entity assets are not considered as financing sources (revenue) available to offset operating expenses,
therefore, a corresponding liability is recorded and presented as governmental liabilities in the
balance sheet to reflect the custodial/fiduciary nature of these activities.

•   Seized Currency and Property – Seized Currency is defined as cash or monetary instruments
    that are readily convertible to cash on a dollar for dollar basis. SFFAS No. 3 requires that seized
    monetary instruments (cash and cash equivalents) be recognized as an asset in the financial
    statements and a liability be established in an amount equal to the seized asset value due to: (i) the
    fungible nature of monetary instruments, (ii) the high level of control that is necessary over these
    assets; and (iii) the possibility that these monies may be returned to their owner in lieu of
    forfeiture.

    Seized property is recorded at its appraised value at the time of seizure. The value is determined
    by the seizing entity and is usually based on a market analysis such as a third party appraisal,
    standard property value publications or bank statements. Seized property is not recognized as an
    asset in the financial statements, as transfer of ownership to the government has not occurred as
    of September 30. Accordingly, seized property other than monetary instruments is disclosed in
    the footnotes in accordance with SFFAS No. 3.

•   Investments and Related Interest Receivable – This balance includes seized cash on deposit in
    the Fund’s suspense account held by Treasury, which has been invested in short term U.S.
    Government Securities.

•   Cash and Other Monetary Assets – This balance represents the aggregate amount of the Fund’s
    seized currency on deposit in the Fund’s suspense account held by Treasury, seized cash on
    deposit held with other financial institutions and, cash on hand in vaults held at field office

                          SECTION III - FINANCIAL STATEMENTS AND NOTES                                 33
    locations.

Liabilities Covered by Budgetary Resources

Liabilities covered by budgetary resources represent liabilities incurred, which are covered by
available budgetary resources. The components of such liabilities for the Fund are as follows:

•   Distributions Payable – Distributions payable to federal and non-federal agencies is primarily
    related to equitable sharing payments and payments to be made by the Fund to the victims of
    fraud.

•   Accounts Payable – Amounts reported in this category include accrued expenses authorized by
    the TFF Act (See "Allowable Fund Expenses") for which payment was pending at year end.

•   Seized Currency – Amounts reported in this category represent the value of seized currency that
    is held by the Fund which equals the amount of seized currency reported as an asset.

•   Deferred Revenue from Forfeited Assets – At year end, the Fund held forfeited assets, which
    had not yet been converted into cash through a sale. The amount reported here represents the
    value of these assets, net of mortgages and claims.

Liabilities Not Covered by Budgetary Resources

The Fund does not currently have liabilities not covered by available budgetary resources.

Net Position

The components of net position are classified as follows:
• Retained Capital – There is no cap on amounts that the Fund can carry forward into Fiscal Year
   2014. The cap was removed by the Fiscal Year 1997 Omnibus Appropriations Act (PL 104-208).

•   Unliquidated Obligations – This category represents the amount of undelivered purchase orders,
    contracts and equitable sharing requests which have been obligated with current budget resources
    or delivered purchase orders and contracts that have not been invoiced. An expense and liability
    are recognized and the corresponding obligations are reduced as goods are received or services
    are performed. A portion of the equitable sharing requests that were in final stages of approval
    are recognized as liabilities at year end. Prior experience with the nature of this account indicated
    that a substantial portion of these requests were certain liabilities at year end. (See also
    Distributions Payable at Note 10).

•   Net Results of Operations – This category represents the net difference, for the activity during
    the year, between: (i) financing sources including transfers, and revenues; and (ii) expenses.




    34           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2013
Note 3: Investments and Related Interest Receivable

All investments are intragovernmental short-term (35 days or less) non-marketable par value federal
debt securities issued by, and purchased through Treasury's Bureau of the Public Debt. Investments
are always purchased at a discount and are reported at acquisition cost, net of discount. The discount
is amortized into interest income over the term of the investment. The investments are always held to
maturity. They are made from cash in the Fund and from seized currency held in the Customs
Suspense Account. The Customs Suspense Account became the depository for seized cash for the
Fund following enactment of the TFF Act.

The following schedule presents the investments on hand as of September 30, 2013 and 2012,
respectively (dollars in thousands):

Entity Assets



Description.                                                 Cost     Unamortized        Investment,
                                                                         Discount               Net
September 30, 2013

Treasury Forfeiture Fund -

35 days 0.0350% U.S. Treasury Bills                    $2,824,018             ($96)       $2,823,922

Interest Receivable                                                                                16

Total Investment, Net, and Interest Receivable                                            $2,823,938

Fair Market Value                                                                         $2,823,948

September 30, 2012

Treasury Forfeiture Fund -

35 days 0.0450% U.S. Treasury Bills                    $1,631,299             ($71)       $1,631,228

Interest Receivable                                                                                39

Total Investment, Net, and Interest Receivable                                            $1,631,267

Fair Market Value                                                                         $1,631,234




                         SECTION III - FINANCIAL STATEMENTS AND NOTES                              35
Non-entity Assets



Description.                                           Cost      Unamortized         Investment,
                                                                    Discount                Net
September 30, 2013

Treasury Forfeiture Fund –
Seized Currency Suspense Account


35 days 0.0350% U.S. Treasury Bills               $1,238,966               ($42)      $1,238,924

Fair Market Value                                                                     $1,238,935

September 30, 2012

Treasury Forfeiture Fund –
Seized Currency Suspense Account


35 days 0.0450% U.S. Treasury Bills               $1,505,073               ($66)    $ 1,505,007

Fair Market Value                                                                   $ 1,505,013




Note 4: Analysis of Non-Entity Assets

The following schedule presents the non-entity assets as of September 30, 2013 and 2012,
respectively, (dollars in thousands):



                                                               2013                2012
    Seized currency:
        Intragovernmental Investments (Note 3)          $      1,238,924     $     1,505,007
        Cash and other monetary assets (Note 5)                  211,940             186,491
    Total Non-Entity Assets                                    1,450,864           1,691,498
    Total Entity Assets                                        2,929,879           1,751,426
    Total Assets                                         $     4,380,743      $    3,442,924




   36          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2013
Note 5: Cash and Other Monetary Assets

Entity Assets

Cash and Other Monetary Assets held on hand included forfeited currency not yet deposited, as well
as forfeited currency held as evidence, amounting to $17.1 million and $18.6 million as of September
30, 2013 and 2012, respectively.

Non-Entity Assets
Cash and Other Monetary Assets included seized currency not yet deposited, as well as deposited
seized currency which is not invested in order to pay remissions, amounted to $211.9 million and
$186.5 million as of September 30, 2013 and 2012, respectively.

Note 6: Forfeited Property/Deferred Revenue

The following summarizes the components of forfeited property (net), as of September 30, 2013 and
2012, respectively, (dollars in thousands):



                                                                        2013             2012
 Held for Sale                                                      $    67,916        $   86,191
 To be shared with federal, state or local, or foreign government           532             1,157
   Total forfeited property (Note 7)                                     68,448            87,348
 Less: Allowance for liens and claims                                    (8,246)           (3,048)
 Total forfeited property, net                                      $    60,202        $   84,300




                          SECTION III - FINANCIAL STATEMENTS AND NOTES                           37
   Note 7: FY 2013 Analysis of Changes in Forfeited Property and Currency

   The following schedule presents the changes in the forfeited property and currency balances from October 1, 2012 to September 30, 2013.
   (Dollar value is in thousands.)
                   10/1/12 Financial                                    10/1/12
                   Statement Balance           Adjustments           Carrying Value          Forfeitures           Deposits/Sales        Disposals/Transfers
                      Value    No.            Value    No.            Value     No.          Value No.              Value       No.         Value      No.
Currency            $18,441         -            $-        -        $18,441         -   $1,546,617       -    $(1,567,585)          -        $ -           -
Other Monetary
Instruments             205           -            -           -        205         -        3,876        -        (1,805)           -                     -
Subtotal             18,646           -            -           -     18,646         -    1,550,493        -    (1,569,390)           -                     -

Real Property        66,507       270          8,930           -     75,437      270       24,846      122        (28,389)     (144)       (3,247)       (3)

General Property     11,148    13,684         24,117           -     35,265    13,684       27,128   28,779       (12,999)    (5,334)      (3,437)   (2,969)
Vessels                 774        66            852           -      1,626        66        3,047      180        (2,339)       (70)        (277)       (9)
Aircraft                400         9            404           -        804         9        3,214       17        (2,241)       (17)         (39)       (1)
Vehicles              8,519     2,314          5,933           -     14,452     2,314       33,705    8,461       (26,922)    (7,524)      (5,722)   (1,012)
Subtotal             87,348    16,343         40,236           -    127,584    16,343       91,940   37,559       (72,890)   (13,089)     (12,722)   (3,994)
Grand Total        $105.994    16,343        $40,236           -   $146,230    16,343   $1,642,433   37,559   $(1,642,280)   (13,089)    $(12,722)   (3,994)

                                                                         Other                                                           Fair Market Value     9/30/13 Financial
                   Victim Restitution            Destroyed            Adjustments          Value Change        2013 Carrying Value          Adjustment         Statement Balance
                      Value     No.           Value          No.      Value      No.        Value      No.          Value        No.        Value       No.       Value        No.
Currency                 $-           -          $-            -    $15,906        -      $(1,843)       -        $11,536          -           $-         -     $11,536          -
Other Monetary
Instruments                -                                   -
                                      -                                  34         -       3,300         -         5,610            -           -         -       5,610           -
Subtotal                   -          -            -           -     15,940         -       1,457         -        17,146            -           -         -      17,146           -

Real Property              -          -            -           -    (5,445)         8            -        -        63,202        253      (18,384)         -      44,818       253

General Property           -          -        (118)    (19,306)       2,748    (858)      (5,003)        -        43,584     13,996      (31,013)         -     12,571     13,996
Vessels                    -          -            -        (96)         263       13         (23)        -         2,297         84       (1,052)         -      1,245         84
Aircraft                   -          -            -           -         349        1            -        -         2,087          9         (763)         -      1,324          9
Vehicles                   -          -          (9)       (389)          55      119      (1,452)        -        14,107      1,969       (5,617)         -      8,490      1,969
Subtotal                   -          -        (127)    (19,791)     (2,030)    (717)      (6,478)        -       125,277     16,311      (56,829)         -     68,448     16,311
Grand Total               $-          -       $(127)    (19,791)    $13,910     (717)     $(5,021)        -      $142,423     16,311     $(56,829)         -    $85,594     16,311




                                        38             TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2013
Note 7 (Cont’d): FY 2012 Analysis of Changes in Forfeited Property and Currency

The following schedule presents the changes in the forfeited property and currency balances from October 1, 2011 to September 30, 2012.
(Dollar value is in thousands.)

                   10/1/11 Financial                                10/1/11
                   Statement Balance       Adjustments           Carrying Value         Forfeitures          Deposits/Sales       Disposals/Transfers
                     Value     No.        Value    No.            Value     No.         Value No.             Value      No.         Value      No.
Currency           $19,629          -        $-        -        $19,629         -    $307,400       -     $(337,273)         -        $ -           -

Other Monetary
Instruments            219           -         -           -        219          -          9         -        (209)          -         (2)         -
Subtotal            19,848           -         -           -     19,848          -    307,409         -    (337,482)          -         (2)         -

Real Property       40,967       251      36,742           -     77,709      251       16,735      93       (29,073)     (118)        (834)       (2)

General Property    12,107    12,358      32,021           -     44,128    12,358      36,829   27,824      (32,516)    (4,034)     (1,907)   (3,683)
Vessels                529        46         453           -        982        46       1,988      160       (1,327)       (57)       (182)       (9)
Aircraft               335         6         228           -        563         6       2,462       16       (1,976)       (13)       (514)       (1)
Vehicles             7,076     2,636       4,981           -     12,057     2,636      36,971    9,467      (28,105)    (8,423)     (7,921)   (1,094)
Subtotal            61,014    15,297      74,425           -    135,439    15,297      94,985   37,560      (92,997)   (12,645)    (11,358)   (4,789)
Grand Total        $80,862    15,297     $74,425           -   $155,287    15,297    $402,394   37,560    $(430,479)   (12,645)   $(11,360)   (4,789)

                                                                     Other                                                        Fair Market Value     9/30/12 Financial
                   Victim Restitution        Destroyed            Adjustments          Value Change       2012 Carrying Value        Adjustment         Statement Balance
                     Value     No.        Value          No.      Value      No.        Value     No.         Value        No.       Value       No.       Value        No.
Currency                $-           -       $-            -    $29,454        -       $(769)       -       $18,441          -          $-         -     $18,441          -

Other Monetary
Instruments               -          -         -           -        205          -       (17)         -         205           -           -         -         205            -
Subtotal                  -          -         -           -     29,659          -      (786)         -      18,646           -           -         -      18,646            -

Real Property             -          -         -           -     10,455         46       445          -      75,437        270      (8,930)         -      66,507       270

General Property          -          -      (73)   (19,758)      (9,876)      977     (1,320)         -      35,265     13,684     (24,117)         -     11,148     13,684
Vessels                   -          -         -       (82)          183        8        (18)         -       1,626         66        (852)         -        774         66
Aircraft                  -          -         -          -          269        1           -         -         804          9        (404)         -        400          9
Vehicles                  -          -         -      (388)        2,044      116       (594)         -      14,452      2,314      (5,933)         -      8,519      2,314
Subtotal                  -          -      (73)   (20,228)        3,075    1,148     (1,487)         -     127,584     16,343     (40,236)         -     87,348     16,343
Grand Total              $-          -     $(73)   (20,228)     $32,734     1,148    $(2,273)         -    $146,230     16,343    $(40,236)         -   $105,994     16,343




                                                          SECTION III - FINANCIAL STATEMENTS AND NOTES                                                                      39
Note 8: FY 2013 Analysis of Changes in Seized Property and Currency

Seized property and currency result primarily from enforcement activities. Seized property is not legally owned by the Fund until judicially or
administratively forfeited. Because of the fungible nature of currency and the high level of control necessary over these assets and the possibility that
these monies may be returned to their owners in lieu of forfeiture, seized currency is reported as a custodial asset upon seizure. Seized property other
than currency is reported as a custodial asset upon forfeiture. (Dollar value is in thousands.)




                 9/30/12 Financial                                                                                                                        9/30/13 Financial
                 Statement Balance             Seizures             Remissions                Forfeitures             Adjustments        Value Changes    Statement Balance
                    Value       No.           Value       No.       Value        No.          Value          No.      Value       No.       Value    N        Value       No.
                                                                                                                                                     o.
Currency        $1,669,346           -    $1,637,332        -   $(374,411)          -   $(1,546,617)            -   $48,931          -    $(1,850)    -   $1,432,731          -

Other
Monetary                                                                                                                                                                      -
Instruments         22,152           -            74        -            -          -        (3,876)            -     (135)          -        (82)    -       18,133
Subtotal         1,691,498           -     1,637,406        -    (374,411)          -    (1,550,493)            -    48,796          -     (1,932)    -    1,450,864          -

Real Property     206,483       571          53,277       208     (22,141)       (82)       (24,846)        (122)    16,286         34     (9,568)    -     219,491       609

General           301,964    25,608          82,532    39,086     (35,756)   (4,894)        (27,128)   (28,779)       8,039    (2,486)     12,203     -     341,854    28,535
Property
Vessels              6,506      166            3,683      216      (1,014)      (21)         (3,047)      (180)        (340)      (19)       (140)    -        5,648      162
Aircraft            10,735       21            4,501       24      (3,442)       (9)         (3,214)       (17)        (350)       (4)        (70)    -        8,160       15
Vehicles            45,460    4,336          108,681   13,915     (45,385)   (4,196)        (33,705)    (8,461)      (2,581)     (356)     (1,789)    -       70,681    5,238
Subtotal           571,148   30,702          252,674   53,449    (107,738)   (9,202)        (91,940)   (37,559)       21,054   (2,831)         636    -      645,834   34,559
Grand Total     $2,262,646   30,702       $1,890,080   53,449   $(482,149)   (9,202)    $(1,642,433)   (37,559)     $69,850    (2,831)    $(1,296)    -   $2,096,698   34,559




                                     40         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2013
Note 8 (Cont’d): FY 2012 Analysis of Changes in Seized Property and Currency

Seized property and currency result primarily from enforcement activities. Seized property is not legally owned by the Fund until judicially or
administratively forfeited. Because of the fungible nature of currency and the high level of control necessary over these assets and the possibility that
these monies may be returned to their owners in lieu of forfeiture, seized currency is reported as a custodial asset upon seizure. Seized property other
than currency is reported as a custodial asset upon forfeiture. (Dollar value is in thousands.)

                    9/30/11 Financial                                                                                                                       9/30/12 Financial
                    Statement Balance            Seizures              Remissions               Forfeitures            Adjustments        Value Changes     Statement Balance
                       Value       No.           Value       No.       Value        No.        Value          No.      Value       No.      Value    No.        Value     No.
Currency            $804,427         -      $1,236,049         -    $(80,924)         -    $(307,400)           -    $18,027         -    $ (833)      -   $1,669,346       -

Other Monetary                                                 -
Instruments           19,792            -        1,804                   (99)          -          (9)            -     1,366          -      (702)     -       22,152           -
Subtotal             824,219            -    1,237,853         -     (81,023)          -    (307,409)            -    19,393          -    (1,535)     -    1,691,498           -

Real Property        206,061       546         52,622        198      (9,267)       (66)     (16,735)         (93)   (24,359)     (14)     (1,839)     -     206,483      571

General Property      225,508   24,408         156,842   39,104      (55,430)   (4,533)      (36,829)   (27,824)       13,948   (5,547)    (2,075)     -      301,964   25,608
Vessels                 5,149      138           3,814      228         (846)      (28)       (1,988)      (160)          513      (12)      (136)     -        6,506      166
Aircraft                6,121       29           9,910       23       (2,309)      (13)       (2,462)       (16)        (289)       (2)      (236)     -       10,735       21
Vehicles               51,035    5,779          82,057   13,302      (45,922)   (4,800)      (36,971)    (9,467)      (2,455)     (478)    (2,284)     -       45,460    4,336
Subtotal              493,874   30,900         305,245   52,855     (113,774)   (9,440)      (94,985)   (37,560)     (12,642)   (6,053)    (6,570)     -      571,148   30,702
Grand Total        $1,318,093   30,900      $1,543,098   52,855    $(194,797)   (9,440)    $(402,394)   (37,560)       $6,751   (6,053)   $(8,105)     -   $2,262,646   30,702




                                                            SECTION III - FINANCIAL STATEMENTS AND NOTES                                                                   41
Note 9: Capitalized Software

The Automated Obligation & Equitable Sharing Management System is to be used to process
requests to transfer funds from the Suspense Account to the Fund, obligate assets for equitable
sharing and issue equitable sharing payments, along with documenting the disposition of forfeited
assets.

The system was operational in its entirety by the end of FY 2013. Fund management has determined
that several modules of the developmental software will not be placed in service or will be deferred
until the next fiscal year pending final determination for implementation. Fund management
calculated percentages for FY 2013 of the capitalized costs to be depreciated (40%), written off
(35%) and capitalized pending final determination (25%). The Fund spent $696 thousand and $660
thousand for software development as of September 30, 2013 and 2012, respectively. Total
depreciation expense for capitalized software was $9 thousand and $0 as of September 30, 2013 and
2012, respectively, $474 thousand, written off in FY 2013 and $882 thousand remaining capitalized
as of September 30, 2013.

Depreciation is expensed on a straight-line basis over the estimated useful life (5 years) of the
internal software asset. Internal-use software in development is not depreciated.

The following schedule presents Internal-Use Software as of September 30, 2013 and 2012,
consisting of the following (dollars in thousands):



                                                                  2013
                                       Useful      Acquisition       Accumulated        Net Book
                                        Life          Cost           Depreciation        Value
           Categories
                                         (in
                                       years)
Internal Use Software                     5                $543                  $9          $534
Internal Use Software -in
                                        N/A                $339                N/A           $339
Development
Total                                                      $882                  $9          $873

                                                                  2012
                                       Useful      Acquisition      Accumulated         Net Book
                                       Life           Cost          Depreciation         Value
           Categories
                                       (in
                                       years)
Internal Use Software                      5                   $0               $0            $0
Internal Use Software -in
                                          N/A               $660              N/A          $660
Development
Total                                                       $660                $0         $660
* The depreciation expense amount and the amount written off are included in the National Contract
Services Seized Property & Other line on the Statement of Net Cost. Accumulated Depreciation is
included in the Capitalized Software line on the Balance Sheet.


   42          TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2013
Note 10: Distributions Payable (state and local agencies and foreign governments)

Distributions Payable (state and local agencies and foreign governments) amounted to$308.6 million
and $71.1 million as of September 30, 2013 and 2012, respectively. Fund management recognizes as
a liability a portion (based on the average of historical pay-out percentage) of the equitable sharing
requests, that were approved or in final stages of approval on September 30, 2013 and 2012,
respectively. Prior experience with the nature of this account indicated that a substantial portion of
these requests were certain to be paid out by the Fund during the following fiscal year.


Note 11: Net Position

Cumulative Results

The following summarizes components of cumulative results as of and for the years ended September
30, 2013 and 2012, respectively, (dollars in thousands):

                                                           2013             2012
                Retained Capital                        $ 1,014,745     $ 1,013,826
                Unliquidated Obligations                    541,150        439,096
                Net Results of Operations                   930,733        102,973
                                                          $2,486,628    $ 1,555,895


Unliquidated Obligations

The following summarizes the components of unliquidated obligations as of September 30, 2013 and
2012 respectively, (dollars in thousands):
                                                        2013             2012
                 Equitable Sharing                  $ 302,688        $ 161,416
                 Mandatory                             238,462           277,680
                                                    $ 541,150        $ 439,096




                         SECTION III - FINANCIAL STATEMENTS AND NOTES                              43
Note 12: Related Party Transactions

The Fund reimbursed agencies for the purchase of certain capital assets. These assets are reported by
the participating agencies in their financial statements.


Note 13: Super Surplus

31 USC 9703 (g)(4)(B) allows for the expenditure, without fiscal year limitation, after the reservation
of amounts needed to continue operations of the Fund. This “Super Surplus” balance may be used
for law enforcement activities of any federal agency.

Amounts distributed to other federal agencies for law enforcement activities under “Super Surplus”
requirements amounts to $82.3 million and $78.7 million in fiscal years 2013 and 2012, respectively.


Note 14: Secretary’s Enforcement Fund

31 USC 9703(b)(5) is another category of permanent indefinite authority. These funds are available
to the Secretary, without further action by Congress and without fiscal year limitation, for federal law
enforcement purposes of Treasury law enforcement organizations. The source of Section 9703(b)(5)
funds is equitable sharing payments received from the Department of Justice and the U.S. Postal
Service (USPS) representing Treasury's share of forfeiture proceeds from Justice and USPS cases.

Amounts distributed for federal law enforcement purposes of Treasury law enforcement
organizations amounted to $12.1 million and $9.5 million in fiscal years 2013 and 2012, respectively.


Note 15: Commitments and Contingencies

COMMITMENTS
A portion of the equitable sharing requests that were in final stages of approval are recognized as
liabilities as of September 30 (See also Note 10, Distributions Payable).

In addition to the amounts estimated above, there are other amounts, which may ultimately be shared,
that are not identified at this time.

CONTINGENCIES
In the opinion of the Fund’s management and legal counsel, there are no pending or threatened
litigation claims for which the amount of potential loss, individually, or in aggregate, will have a
material adverse effect on the Fund’s financial statements.




    44         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2013
Note 16: Disclosures Related to the Statements of Net Cost

Gross costs and earned revenue related to Law Enforcement Programs administered by the Fund are
presented in Treasury’s budget functional classification (in thousands) as set out below:

                                                         2013             2012
       Gross Costs                                     $ 203,083        $ 161,013
       Earned Revenues                                           -               -

       Net Costs                                       $ 203,083        $ 161,013

The Fund falls under the Treasury’s budget functional classification related to Administration of
Justice.


Note 17: Disclosures Related to the Statements of Budgetary Resources

The Fund’s net amount of budgetary resources obligated at the end of fiscal years 2013 and 2012
were $924.4 million and $550.8 million, respectively. This amount is fully covered by cash on hand
in the Fund and Entity Investments. The Fund does not have borrowing or contract authority and,
therefore, has no repayment requirements, financing sources for repayment, or other terms of
borrowing authority. There are no legal arrangements, outside of normal government wide
restrictions, specifically affecting the Fund’s use of unobligated balances of budget authority.

Adjustments to budgetary resources available at the beginning of fiscal years 2013 and 2012 consist
of the following (in thousands):

                                                                 2013            2012
             Recoveries of Prior Year Unpaid Obligations $       23,887      $    29,747


Recoveries of prior year obligations are the difference between amounts that Fund management
obligated (including equitable sharing) and amounts subsequently approved for payment against
those obligations.


Note 18: Dedicated Collections

The Fund is classified as a special fund. All its activities are reported as dedicated collections held
for later use.




                         SECTION III - FINANCIAL STATEMENTS AND NOTES                               45
Note 19: Payments in Lieu of Forfeiture, Net of Refunds

The following summarizes Payments in Lieu of Forfeiture, Net of Refunds as of September 30, 2013
and 2012, respectively, (dollars in thousands):

                                                         2013           2012
                Payments in Lieu of Forfeiture       $      8,673      $ 9,159
                Refunds                                    (1,716)      (6,245)
                Total                                $     6,957       $ 2,914




   46         TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2013
Note 20: Reconciliation of Net Cost of Operations (Proprietary) to Budget

The reconciliation of Net Cost of Operations to Budget demonstrates the relationship between the
Fund’s proprietary (net cost of operations) and budgetary accounting (net obligations) information (in
thousands).


                                                                            2013           2012
  Resources Used to Finance Activities:
    Budgetary resources obligated
        Obligations incurred                                           $    908,113 $      527,417
        Less: Spending authority from offsetting
           Collections and recoveries                                       (23,887)       (29,747)
        Net Obligations                                                     884,226        497,670
    Other resources
        Transfers – out                                                     (94,373)       (88,181)
  Total Resources Used to Finance Activities                                789,853        409,489

  Resources Used to Finance Items not Part of the Net
   Cost of Operations
         Change in budgetary resources obligated for goods,
          services and benefits ordered but not yet provided                (99,786)       (74,992)
         Other resources or adjustments to net obligated
          resources that do not affect net cost of operations
            Mortgages and claims                                             (2,489)        (2,777)
            Refunds                                                          (1,716)        (6,245)
            Equitable Sharing (federal, state/local and foreign)           (408,205)      (117,873)
            Victim restitution                                              (74,583)       (46,589)
  Total Resources Used to Finance Items not Part of the Net
   Cost of Operations                                                      (586,779)      (248,476)
  Components not Requiring or Generating Resources-
  Depreciation                                                                    9              -
  Total Resources Used to Finance the Net Cost of Operations                203,083        161,013
  Net Cost of Operations                                               $    203,083 $      161,013




                         SECTION III - FINANCIAL STATEMENTS AND NOTES                                47
THIS PAGE INTENTIONALLY LEFT BLANK
            SECTION IV

REQUIRED SUPPLEMENTAL INFORMATION

           (UNAUDITED)
THIS PAGE INTENTIONALLY LEFT BLANK
Intragovernmental Amounts – Assets (Dollars in thousands)
                                                     2013                                                       2012
                               Fund                                                 Fund
                              Balance         Accounts                             Balance               Accounts
                                with         Receivable/                             with               Receivable/
     Partner Agency           Treasury        Advances          Investments        Treasury              Advances           Investments
 Treasury                    $    26,091 -   $              -   $           -     $        14,526       $              -    $          -
 Departmental Offices                  -                75                  -                 -                       40               -
 Bureau of Fiscal
 Service                               -                    -       4,062,862                  -                       -        3,136,274

 Totals                      _$ 26,091       $          75      $ 4,062,862       $        14,526       $             40    $ 3,136,274



Intragovernmental Amounts – Liabilities (Dollars in thousands)

                                                                              2013                      2012
                                                                            Accounts                  Accounts
                    Partner Agency                                          Payable                   Payable

                    Department of Justice                               $        3,960            $          5,440

                    Department of Homeland Security                             36,406                            -

                    Departmental Offices                                         3,380                       1,305

                    FinCen                                                       2,235                       2,527

                    Tax and Trade                                                     86                         68

                    Treasury Office of the Inspector General                      152                            14

                    Internal Revenue Service                                    21,202                      23,311
                    Totals                                              $       67,421        $             32,665



Intragovernmental Amounts – Revenues and Costs (Dollars in thousands)
                                                     2013                                                       2012

                              Cost to Generate           Costs to Generate         Cost to Generate                    Costs to Generate
                                  Exchange                Non-Exchange                 Exchange                         Non-Exchange
                             Intragovernmental          Intragovernmental         Intragovernmental                   Intragovernmental
     Budget Functions             Revenue                    Revenue                   Revenue                             Revenue


Administration of Justice     $                  -      $             133,638     $                         -         $           100,487




48           TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2013
Intragovernmental Amounts – Non-exchange Revenue (Dollars in thousands):

                                                     2013                                    2012
              Partner Agency                In                      Out             In                  Out


 Department of Justice                  $        -          $         3,687     $        -      $         2,267
 Department of Homeland Security                 -                   68,062              -               43,524
 Department of Treasury                          -                         92            -                1,266
 Internal Revenue Service                        -                   15,965              -               28,818
 Financial Crimes Enforcement Network            -                    5,443              -               11,509
 Tax and Trade                                   -                        693            -                     91
 Department of Defense                           -                        431            -                    206
 Department of Commerce                          -                          -            -                    500
   Totals                               $        -              $    94,373     $        -          $    88,181




                  SECTION IV – REQUIRED SUPPLMENTAL INFORMATION (UNAUDITED)                                     49
          SECTION V

OTHER ACCOMPANYING INFORMATION

         (UNAUDITED)
THIS PAGE INTENTIONALLY LEFT BLANK
                                          TREASURY FORFEITURE FUND
                              Equitable Sharing Summarized by State and U.S. Territories
                                        For the Year Ended September 30, 2013
                                                 (Dollars in Thousands)
                                                      (Unaudited)

     State/U.S. Territories                                    Currency Value              Property Value

     Alabama                                                      $        236              $         16
     Alaska                                                              1,951                       621
     Arizona                                                               959                        58
     Arkansas                                                              640                          -
     California                                                         11,973                       374
     Colorado                                                            1,874                        11
     Connecticut                                                           158                          -
     D.C. Washington                                                        11                          -
     Delaware                                                              290                        75
     Florida                                                             3,788                     1,090
     Georgia                                                             2,750                         4
     Guam                                                                   55                          -
     Hawaii                                                                 92                          -
     Idaho                                                                 192                        37
     Illinois                                                            1,523                        14
     Indiana                                                               135                          -
     Iowa                                                                  538                         5
     Kansas                                                                373                         2
     Kentucky                                                              306                         2
     Louisiana                                                             489                        33
     Maine                                                               1,370                          -
     Maryland                                                            3,185                        21
     Massachusetts                                                         665                       528
     Michigan                                                              589                        98
     Minnesota                                                             333                       124
     Mississippi                                                            25                          -
     Missouri                                                            5,253                         2
     Montana                                                                36                         5
     Nebraska                                                              150                          -
     Nevada                                                                215                        14
     New Jersey                                                          3,157                        30
     New Hampshire                                                           1                          -
     New Mexico                                                            196                         6
     New York                                                           11,135                        57
     North Carolina                                                      4,377                       625
     North Dakota                                                             -                         -
     Ohio                                                                  609                       159
     Oklahoma                                                              151                         4
     Oregon                                                                370                        66
     Pennsylvania                                                          457                        28
     Puerto Rico                                                           877                        31
     Rhode Island                                                          132                          -
     South Carolina                                                      2,181                       276
     South Dakota                                                           12                          -
     Tennessee                                                              21                        27
     Texas                                                               4,796                       288
     Utah                                                                  135                          -
     Subtotal carried forward                                         $ 68,761                    $4,731


50                TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2013
                                          TREASURY FORFEITURE FUND
                              Equitable Sharing Summarized by State and U.S. Territories
                                        For the Year Ended September 30, 2013
                                                (Dollars in Thousands)
                                                     (Unaudited)

     State/U.S. Territories                                    Currency Value                  Property Value

     Subtotal brought forward                                        $68,761                          $4,731
     Vermont                                                              95                               -
     Virgin Islands                                                        -                               -
     Virginia                                                         45,836                               2
     Washington                                                        2,799                              72
     West Virginia                                                     1,336                               -
     Wisconsin                                                            56                              65
     Wyoming                                                              12                               -

              Totals                                                $118,895                          $4,870




Summarized above are the currency and property values of assets forfeited and shared with state and local
agencies and U.S. Territories participating in the seizure. This supplemental schedule is not a required part of
the financial statement of the Department of the Treasury Forfeiture Fund. Information presented on this
schedule represents assets physically transferred during the year and, therefore, does not agree with total assets
shared with state and local agencies in the financial statements. In addition, the above numbers do not include
the adjustment to present property distributed at net realizable value.




                          SECTION V –OTHER ACCOMPANYING INFORMATION (UNAUDITED)                                 51
                                TREASURY FORFEITURE FUND
              Uncontested Seizures of Currency and Monetary Instruments Valued Over
             $100 Thousand Taking More Than 120 Days from Seizure to Deposit in Fund
                              For the Year Ended September 30, 2013
                                       (Dollars in Thousands)



31 U.S.C. 9703(f)(2)(E) requires the Secretary of the Treasury to report annually to Congress
uncontested seizures of currency or proceeds of monetary instruments over $100 thousand which were
not deposited in the Department of the Treasury Forfeiture Fund within 120 days of the seizure date.
There were 72 administrative seizures over $100 thousand over 120 days old totaling $28,957 that had not
been transferred from the Seized Currency Suspense Account to the Treasury Forfeiture Fund as of the
end of FY 2013.




52             TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2013
                                   TREASURY FORFEITURE FUND
                           Analysis of Revenue and Expenses and Distributions
                                For the Year Ended September 30, 2013
                                         (Dollars in Thousands)

 Revenue, Expenses and Distributions by Asset Category:
                                                                                             Expenses and
                                                                             Revenue         Distributions

 Vehicles                                                                   $ 13,269            $ 191,960
 Vessels                                                                        3,686              244,577
 Aircraft                                                                       3,686               78,794
 General Property                                                              11,795              776,301
 Real Property                                                                 41,282               30,407
 Currency and monetary instruments                                          1,641,464              393,143
                                                                            1,715,182            1,715,182
 Less:
   Mortgages and claims                                                        (2,489)              (2,489)
   Refunds                                                                     (1,716)              (1,716)
 Add:
   Excess of net revenues and financing sources over total program                  --                   --
       expenses
 Total                                                                    $ 1,710,977          $ 1,710,977

 Revenue, Transfers, Expenses and Distributions by Type of
 Disposition:
 Sales of property and forfeited currency and monetary instruments        $ 1,229,365           $ 325,885
 Reimbursed storage costs                                                       3,029              171,518
 Assets shared with state and local agencies                                  300,537              300,537
 Assets shared with other federal agencies                                    107,668              107,668
 Assets shared with foreign countries                                               --                   --
 Victim Restitution                                                            74,583               74,583
 Destructions                                                                       --             205,822
 Pending disposition                                                                --             529,169
                                                                            1,715,182            1,715,182
 Less:
   Mortgages and claims                                                        (2,489)              (2,489)
   Refunds                                                                     (1,716)              (1,716)
 Add:
   Excess of net revenues and financing sources over total program                  --                   --
       expenses
 Total                                                                    $ 1,710,977          $ 1,710,977

The revenue amount of $1,710,977 is from the Statement of Changes in Net Position. This supplemental
schedule “Analysis of Revenues, Expenses and Distributions” is required under the Treasury Forfeiture Fund
Act of 1992.




                      SECTION V –OTHER ACCOMPANYING INFORMATION (UNAUDITED)                                  53
                                  TREASURY FORFEITURE FUND
                                         Schedule of Spending
                           For the Years Ended September 30, 2013 and 2012
                                        (Dollars in Thousands)

                                                                       2013          2012
                                                                                  Reclassified
     What Money is Available to Spend?

           Total resources                                            1,796,222        672,330
           Less amount not available to be spent                      (888,109)      (144,913)
           Total Amounts Agreed to be Spent                          $ 908,113      $ 527,417

     How was the Money Spent?

     Other contractual services                                      $ 185,688       $ 287,207
            Supplies and materials                                          18              20
            Grants, subsidies and contributions                        581,555         152,131
            Interest and dividends                                          26             325
            Refunds                                                     92,690          87,734
            Others (i.e. unvouchered, undistributed)                    48,136               -
            Total Amounts Agreed to be Spent                         $ 908,113      $ 527,417




     Who did the Money go to?
          Federal                                                    $ 182,447       $ 235,581
           Non-Federal                                                       -         291,836
           State/Local/Tribal/Foreign Governments                      581,556               -
           Business and Organizations                                   53,928               -
          Individuals                                                   90,182               -

            Total Amounts Agreed to be Spent                         $ 908,113       $ 527,417




54             TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2013
                                  TREASURY FORFEITURE FUND
                               Information Required by 31 U.S.C. 9703(f)
                                For the Year Ended September 30, 2013
                                        (Dollars in Thousands)

The Treasury Forfeiture Fund Act of 1992, 31 U.S.C. 9703(f), requires the Secretary of the Treasury to
transmit to Congress, no later than February 1, of each year, certain information. The following
summarizes the required information.

(1)   A report on:

      (A) The estimated total value of property forfeited with respect to which funds were not deposited in the
          Department of the Treasury Forfeiture Fund during the preceding fiscal year under any law
          enforced or administered by the Department of the Treasury law enforcement organizations of the
          United States Coast Guard, in the case of fiscal years beginning after 1993.

          As reported in the audited financial statements, at September 30, 2013, the Fund had forfeited
          property held for sale of $67,916. The realized proceeds will be deposited in the Fund when
          the property is sold.

          Upon seizure, currency and other monetary instruments not needed for evidence in judicial
          proceedings are deposited in a Customs and Border Protection (CBP) suspense account.
          Upon forfeiture, it is transferred to the Treasury Forfeiture Fund. At September 30, 2013,
          there was $17,146 of forfeited currency and other monetary instruments that had not yet been
          transferred to the Fund. This is reported as a part of “Cash and Other Monetary Assets” in
          the audited financial statements.

      (B) The estimated total value of all such property transferred to any state or local law enforcement
          agency.

          The estimated total value of all such property transferred to any state or local law
          enforcement bureau is summarized by state and U.S. territories. Total currency transferred
          was $118,895 and total property transferred was $4,870 at appraised value.

(2)   A report on:

      (A) The balance of the Fund at the beginning of the preceding fiscal year.

          The total net position of the Treasury Forfeiture Fund on September 30, 2012 which became
          the beginning balance for the Fund on October 1, 2012, as reported in the audited financial
          statements is $1,555,895.




                     SECTION V –OTHER ACCOMPANYING INFORMATION (UNAUDITED)                                  55
                                 TREASURY FORFEITURE FUND
                              Information Required by 31 U.S.C. 9703(f)
                               For the Year Ended September 30, 2013
                                       (Dollars in Thousands)

     (B) Liens and mortgages paid and the amount of money shared with federal, state, local and foreign law
         enforcement bureaus during the preceding fiscal year.

         Mortgages and claims expense, as reported in the audited financial statements, was $2,489.
         The amount actually paid on a cash basis was not materially different.

         The amount of forfeited currency and property shared with federal, and distributed to state,
         local and foreign law enforcement bureaus as reported in the audited financial statements was
         as follows:

                                                                    Amount
                           State and local                         $300,537
                           Foreign countries                              -
                           Other federal agencies                   107,668
                           Victim restitution                        74,583

     (C) The net amount realized from the operations of the Fund during the preceding fiscal year, the
         amount of seized cash being held as evidence, and the amount of money that has been carried over
         into the current fiscal year.

         The net cost of operations of the Fund as shown in the audited financial statements is
         $203,083.

         The amount of seized currency not on deposit in the Fund’s suspense account at September
         30, 2013, was $211,940. This amount includes some funds in the process of being deposited at
         year-end; cash seized in August or September 2013 that is pending determination of its
         evidentiary value from the U.S. Attorney; and the currency seized for forfeiture being held as
         evidence.

         On a budgetary basis, unobligated balances as originally reported on the Office of
         Management and Budget Reports, SF-133, “Report on Budget Execution” was approximately
         $888,109 for fiscal year 2013. This excludes $1,037,459 in FY 2013 rescinded authority that is
         classified as “temporary.” If this figure is added to the unobligated balances at the end of FY
         2013, the figure becomes $1,925,568.




56            TREASURY FORFEITURE FUND ACCOUNTABILITY REPORT – FISCAL YEAR 2013
                             TREASURY FORFEITURE FUND
                          Information Required by 31 U.S.C. 9703(f)
                           For the Year Ended September 30, 2013
                                   (Dollars in Thousands)

(D) Any defendant’s property not forfeited at the end of the preceding fiscal year, if the equity in such
    property is valued at $1 million or more.

    The total approximate value of such property for the Treasury Forfeiture Fund, at estimated
    values determined by bureau and contractor’s officials, and the number of seizures is as
    follows:

            Bureau                          Amount                       Number
            CBP                             $258,371                  54 seizures
            IRS                              791,769                 132 seizures
            U.S. Secret Service              144,208                  24 seizures

(E) The total dollar value of uncontested seizures of monetary instruments having a value of over $100
    thousand which, or the proceeds of which, have not been deposited into the Fund within 120 days
    after the seizure, as of the end of the preceding fiscal year.

    The total dollar value of such seizures is $28,957. This is also documented on page 52.

(F) The balance of the Fund at the end of the current fiscal year.

    The total net position of the Fund at September 30, 2013, as reported in the audited financial
    statements is $2,486,628.

(G) The net amount, if any, of the excess unobligated amounts remaining in the Fund at the end of the
    preceding fiscal year and available to the Secretary for Federal law enforcement related purposes.

    There is no cap on amounts that can be carried forward into Fiscal Year 2013 per the fiscal
    year 1997 Omnibus Appropriations Act (PL 104-208).

(H) A complete set of audited financial statements prepared in a manner consistent with the
    requirements of the Chief Financial Officers Act of 1990.

    The audited financial statements, including the Independent Auditor’s Report, are found in
    Sections II and III.

(I) An analysis of income and expense showing revenue received or lost: (i) by property category
    (such as general property, vehicles, vessels, aircraft, cash, and real property); and (ii) by type of
    disposition (such as sale, remission, cancellation, placement into official use, sharing with state and
    local agencies, and destruction).

    A separate schedule is presented on page 53.




               SECTION V –OTHER ACCOMPANYING INFORMATION (UNAUDITED)                                    57
